<html>
<title> - FOR THE PEOPLE: OUR AMERICAN DEMOCRACY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]










                 FOR THE PEOPLE: OUR AMERICAN DEMOCRACY

=======================================================================

                                HEARING

                               BEFORE THE

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 14, 2019

                               __________

      Printed for the use of the Committee on House Administration










              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













                      Available on the Internet:
         https://www.govinfo.gov/committee/house-administration 
         
                                 __________
	 
                     U.S. GOVERNMENT PUBLISHING OFFICE
	                       
 37-039                     WASHINGTON : 2019 
	        
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                            C O N T E N T S

                              ----------                              

                           FEBRUARY 14, 2019

                                                                   Page
For the People: Our American Democracy...........................     1

                           OPENING STATEMENTS

Chairperson Zoe Lofgren..........................................     1
    Prepared statement of Chairperson Lofgren....................     3
Hon. Rodney Davis, Ranking Member................................     5
    Prepared statement of Ranking Member Davis...................     7

                               WITNESSES

Chirang Bains, Director of Legal Strategies, Demos...............    11
    Prepared statement by Mr. Bains..............................    14
Wendy Weiser, Director, Democracy Program, Brennan Center for 
  Justice at New York University School of Law...................    32
    Prepared statement of Ms. Weiser.............................    34
Fred Wertheimer, President, Democracy 21.........................    72
    Prepared statement of Mr. Wertheimer.........................    74
Hon. Kim Wyman, Secretary of State, State of Washington..........    94
    Prepared statement of Ms. Wyman..............................    96
Alejandro Rangel-Lopez, student..................................   110
    Prepared statement of Mr. Rangel-Lopez.......................   112
Peter Earle, Wisconsin Civil rights Trial Lawyer.................   115
    Prepared statement of Mr. Earle..............................   117
Brandon A. Jessup, Data Science and Information Systems 
  Professional: Executive Director, Michigan Forward.............   124
    Prepared statement of Mr. Jessup.............................   126
David Keating, President, Institute for Free Speech..............   128
    Prepared statement of Mr. Keating............................   130

                       SUBMISSIONS FOR THE RECORD

Asian Americans Advancing Justice, statement.....................   206
Campaign Legal Center, statement.................................   218
Declaration for American Democracy, statement....................   257
Indivisible Project, statement...................................   272
Lawyers' Committee for Civil Rights Under Law, statement.........   280
Deborah Cox, County Clerk/Election Officer, Ford County, Kansas, 
  letter of February 19, 2019, to Chairperson Lofgren and Ranking 
  Member Davis...................................................   290
Public Citizen, letter of February 13, 2019......................   275

 
                 FOR THE PEOPLE: OUR AMERICAN DEMOCRACY

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2019

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 8:30 a.m., in Room 
1310, Longworth House Office Building, Hon. Zoe Lofgren 
[Chairperson of the Committee] presiding.
    Present: Representatives Lofgren, Raskin, Davis of 
California, Butterfield, Fudge, Aguilar, Davis of Illinois, and 
Loudermilk.
    Staff Present: Jamie Fleet, Staff Director; Eddie Flaherty, 
Director of Operations; Sean Jones, Legislative Clerk; David 
Tucker, Parliamentarian; Khalil Abboud, Deputy Staff Director; 
Veleter Mazyck, Chief of Staff, Office of Representative Fudge; 
Elizabeth Hira, Elections Counsel; Stephen Spaulding, Elections 
Counsel; Peter Whippy, Communications Director; Lisa Sherman, 
Chief of Staff, Office of Representative Susan A. Davis; Evan 
Dorner, Office of Representative Aguilar; Laura Doney, Office 
of Representative Raskin; Jen Daulby, Minority Staff Director; 
Brittany Randall, Minority Professional Staff; Tim Monahan, 
Minority Professional Staff; David Ross, Office of 
Representative Rodney Davis; Carson Steelman, Office of 
Representative Walker; and Susannah Johnston, Minority 
Legislative Assistant.
    The Chairperson. Good morning, and we welcome our witnesses 
and members. And I would like to bring the Committee on House 
Administration to order and thank everyone in attendance.
    Just a few housekeeping matters. We do have the funeral of 
our former colleague, John Dingell, this morning, and so we are 
going to have panel one prior to that, and we will reconvene 
around 1 o'clock for the second panel.
    I will just say that I am pleased that we are having this 
hearing on ``For the People: Our American Democracy.'' We have 
a distinguished group of witnesses who will share their 
insights and experiences.
    Before we hear from them and from the Ranking Member, I 
would be remiss if I did not thank Congressman John Sarbanes 
for the tremendous effort that he has made over the years for 
H.R. 1 that is before us.
    As we know, trust in government is at a low point. We have 
many challenges that we have to work on together.
    One thing is that everyone in this country has a stake in 
how our country works, and the way they express that is through 
their vote and deciding who their government will be.
    The mechanics of our democracy--access to voting, running 
for office, holding government accountable--have all undergone 
radical changes in recent years, and these changes have tended 
to restrict the rights of eligible voters to vote. It has made 
the voices of the wealthy and powerful so loud that they can 
drown out the voices of ordinary people, our neighbors and our 
communities.
    Cutbacks to early voting, shutting down polling places, and 
purging eligible voters from the voter rolls all put barriers 
to participation to our elections, and certainly we have issues 
with technical matters relative to voting and voting machines.
    There is hope that we can work to restore our democratic 
promise, and H.R. 1 is the beginning of that. Ultimately, if we 
are to address the problems that we face tomorrow, and in the 
years and decades ahead, it is essential that our democracy 
works and the voices of all our citizens, rich and poor, young 
and old, are heard and heard equally. The promise of our 
democracy is indeed for the people.
    So I look forward to our time this morning.
    I would now like to recognize our Ranking Member, Mr. 
Davis, for any statement he may have.
    [The statement of the Chairperson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    Welcome to the new members of the Committee. Glad to have 
you here.
    This is a great debate. America's election system, as I 
think everybody in this room can attest, can always be 
improved. While there are some reforms and provisions in H.R. 1 
where I believe Republicans and Democrats can find common 
ground, there are several provisions that I simply find 
egregious, and I cannot support H.R. 1 in its current form 
because of those.
    We should all share a common goal of ensuring our elections 
be open, free, fair, and functioning with the highest level of 
integrity, and, unfortunately, I don't believe H.R. 1 is going 
to accomplish that goal.
    This bill was drafted without any consultation of 
Republican Members of Congress, without any consultation of 
Republican members even on this Committee, and there are only 
three of us. Introducing one-sided election reform is not the 
way to create positive and effective change for our Nation's 
election system.
    Now, I mentioned the egregious provisions in H.R. 1. One of 
the most egregious ones is that it creates a six-to-one 
government match to any small dollar campaign contributions up 
to $200. So when my good friend Pete Aguilar over there gives 
me 200 bucks in my next campaign--
    Mr. Aguilar. It won't happen.
    Mr. Davis of Illinois. It won't now because the Federal 
Government will take your tax dollars and match that with 
$1,200. Of course it won't happen now.
    But you know what, those are some of the things that I 
don't think the American people understand about this bill 
where their tax dollars are going to go help put more money 
into politics when we are hearing from the American people we 
want to take money out of politics. I just find it hard to 
believe the average American taxpayer is going to want the 
taxpayers to create a political candidate's ATM.
    This matching program would also apply to Presidential 
campaigns with a limit of $250 million of Federal taxpayer 
dollars to each candidate running for President's campaign. I 
don't know if any on the other side of the aisle in this room 
are planning to run for President, but they would be eligible 
for--if there are 20 candidates in the Democratic primary in 
this next Presidential election, let's just say that is $5 
billion of Federal funding that these candidates can use to 
create campaign ads, hold events, and travel on taxpayer 
dollars.
    Now I am understanding why, when we tried to abolish the 
Presidential Election Campaign Fund to put $370 million-plus 
into paying down the debt or pediatric cancer research 2 years 
ago, that this Committee voted to send that when we were in the 
majority on a partisan ballot.
    Not only will the Federal Government match campaign 
donations through H.R. 1, but it is going to also create a new 
government program that is going to create subsidies, a voucher 
pilot program that provides eligible voters with $25 to give to 
a political candidate. We need another government program to 
put more money into politics with no limitations?
    Once you open the door to public financing, it is never 
enough. It is another way that money and politics is corrosive, 
something that my Democratic colleagues and Republican 
colleagues say they want to expose and remove from our 
political system.
    I would also like to remind my colleagues that we still 
have not seen the CBO score for H.R. 1. I just mention this 
simple math, $5 billion just for Presidential candidates. With 
all the taxpayer dollars from these provisions alone, I am 
curious to know how much it would cost taxpayers for the entire 
bill to be implemented, not just one provision.
    Another reason I cannot support H.R. 1 in its current form 
is it is increasing the election system's vulnerability by 
failing to implement necessary checks and balances regarding 
who is eligible to register to vote. H.R. 1 will force States 
like Washington, Illinois, Georgia, California, North Carolina 
to implement systems that may continue to burden our local 
officials and take away our States' rights, their 
constitutional responsibilities to run elections.
    We don't want H.R. 1 taking power away from the States 
given to them by the Constitution. We don't want H.R. 1 to 
place voters at risk by forcing States to adopt subjective 
practices that allow for things like signature verification as 
proof of eligibility without any safeguards ensuring that those 
who are eligible to vote are the ones that are going to vote.
    H.R. 1 creates a false sense of security by federalizing 
and centralizing our election system, and I think it makes it 
more vulnerable to an attack. Well, we can look no further than 
former President Obama, who said: ``There is no serious person 
out there who would suggest somehow that you could even rig 
America's elections, in part because they are so de-centralized 
and the number of votes involved.''
    H.R. 1 demonstrates the increasing Federal control of 
elections through numerous reporting requirements, and we want 
to make sure that the oversight authority of the Election 
Assistance Commission, the Department of Homeland Security, and 
the Department of Justice remain true as they are today.
    Finally, it is just a constitutional overreach that places 
limits on free speech protected by the First Amendment. And as 
I have already mentioned, it also violates the separation of 
powers by Congress by mandating ethics standards for the 
Supreme Court.
    Bipartisan election reforms can happen, but not with 
Republicans not even being consulted when a 571-page bill is 
thrown right at us. And I would argue many of the entire 
Democratic Caucus who cosponsored this bill may be having 
second thoughts when they realize some of the egregious 
provisions that are in there before they probably read it.
    With that, Madam Chairperson, thank you. I yield back.
    [The statement of Mr. Davis of Illinois follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you. The gentleman yields back.
    We will now go to our witnesses. I would ask unanimous 
consent that all Members have 5 legislative days to revise and 
extend their remarks, and written statements may be part of the 
record. And with no objection, that is ordered.
    We have 5 minutes for each witness to testify. As noted, 
your written statements will be made a part of the record. I 
would like to introduce the witnesses now.
    First, we have Chiraag Bains, who is the Director of Legal 
Strategies at Demos. Wendy Weiser, the Director of the 
Democracy Program at the Brennan Center for Justice at the NYU 
School of Law. Fred Wertheimer, who is the President of 
Democracy 21 and a longtime advocate for ethics in government. 
And the Honorable Kim Wyman, the Secretary of State of the 
State of Washington. Welcome.
    Thank you all for coming.
    We will now start with Mr. Bains.
    Mr. Bains, you are recognized for 5 minutes.

  STATEMENTS OF CHIRAAG BAINS, DIRECTOR OF LEGAL STRATEGIES, 
   DEMOS; WENDY WEISER, DIRECTOR, DEMOCRACY PROGRAM, BRENNAN 
   CENTER FOR JUSTICE AT NYU SCHOOL OF LAW; FRED WERTHEIMER, 
PRESIDENT, DEMOCRACY 21; AND THE HONORABLE KIM WYMAN, SECRETARY 
                 OF STATE, STATE OF WASHINGTON

                   STATEMENT OF CHIRAAG BAINS

    Mr. Bains. Thank you Chairperson Lofgren, Ranking Member 
Davis, and all the members of the Committee, for the 
opportunity to testify today. My name is Chiraag Bains, and I 
am Director of Legal Strategies for Demos, a civil rights 
organization that champions ways to address inequity in our 
political and economic systems, putting communities of color at 
the center of how and why we do our work.
    I am also the child of immigrants. I took the citizenship 
test and naturalized at age 18, raising my right hand and 
pledging to support the Constitution. Over time, each member of 
my family followed, right on through to my 99-year-old 
grandfather, who is proud to be able to cast his vote.
    As new Americans learn, the promise of this country is that 
every person has a voice and every person ought to be counted. 
Our history has been one of struggle to make that promise a 
reality particularly when it comes to race.
    From the dispossession of native peoples, to slavery, to 
Jim Crow, to the Chinese Exclusion Act, to the War on Drugs, we 
have often fallen short. Today, voting rights are under attack 
and our big money political system allows billionaires and 
corporations to drown out the voices of everyday Americans.
    These dynamics have serious racial equity consequences. The 
problems that are most pressing for people of color--economic 
inequality, education disparities, police abuse, just to name a 
few--are sidelined or exacerbated.
    The For the People Act takes a comprehensive approach to 
voting and campaign finance reform. First, our democracy is 
stronger when more people participate. But voter suppression 
poses a clear and present danger to our system.
    One increasingly common tactic is aggressive voter purges. 
Last year Demos won an injunction to stop Indiana from removing 
thousands of voters from the rolls, without notice, based on 
Crosscheck, a program that purports to identify people who have 
moved out of State, but is wrong an estimated 99 percent of the 
time based on academic research.
    Just last week, we sued Texas to stop the State from 
purging voters. Texas' Secretary of State announced that up to 
95,000 non-citizens are registered and up to 58,000 have voted. 
The State attorney general and President Trump quickly fired 
off tweets alleging voter fraud.
    That claim is false. The overwhelming majority, if not all, 
of these individuals are naturalized citizens like our client, 
Nivien Saleh. Nivien, who describes the Declaration of 
Independence as ``the greatest political document I can 
imagine,'' was horrified to find herself on the list. She told 
us she felt apprehensive, insulted, and angry that her 
registration could be canceled.
    We also sued Ohio over the practice of targeting infrequent 
voters for purging. Ohio turned voting into a use-it-or-lose-it 
right.
    That also had a discriminatory impact. Voters in majority 
black neighborhoods were purged at over twice the rate as 
voters in majority white neighborhoods in Cincinnati. Due to a 
court order, 7,500 wrongly purged Ohioans were able to vote in 
the 2016 election.
    Now, unfortunately, the Supreme Court later upheld the 
program five to four. H.R. 1 would correct the Court's mistake 
and ensure that voters are removed only based on reliable 
evidence.
    Voter suppression has been on the rise in other ways since 
the Supreme Court gutted the Voting Rights Act in 2013. At 
least 23 States have passed new restrictive voting laws--photo 
ID, cuts to early voting, polling place closures. And now, 
under President Trump, the Justice Department, where I worked 
for 6\1/2\ years, has slowed voting rights enforcement, even 
switching sides in key cases.
    For these reasons it is critical that H.R. 1 commits to 
restoring the Voting Rights Act, and it has proactive measures, 
like automatic voter registration and same-day registration, 
that ensure more Americans can take part in our elections.
    Now we also must curb the distorting influence of money in 
politics. Less than a 1 percent of the population provides the 
majority of campaign funds. Just 25 people poured $600 million 
into the 2016 election. This donor class is overwhelmingly 
white, wealthy, and male, and its policy preferences are far 
out of step with those of communities of color and working 
people of all backgrounds.
    Our big money political system also functions as a barrier 
to entry for candidates of color because they lack access to 
the same networks of rich friends and business associates that 
white candidates have access to. When candidates do run, they 
raise on average 47 percent less than their white counterparts.
    This Act would curb the influence of big money in politics 
in our elections through the small-donor match program and the 
democracy voucher program.
    America's brightest moments have involved welcoming people 
into the political process. The For the People Act fits into 
that tradition. It will do more than any legislation since the 
civil rights era to build a truly inclusive democracy. Demos 
strongly supports it.
    [The statement of Mr. Bains follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you very much.
    Ms. Weiser, you are now recognized for 5 minutes.

                   STATEMENT OF WENDY WEISER

    Ms. Weiser. Thank you, Chairperson Lofgren, Ranking Member 
Davis, and members of the Committee.
    As you know, there are extraordinary problems facing our 
democracy today: brazen and widespread voter suppression; 
elections funded by dark money groups and a tiny number of 
wealthy donors; extreme gerrymandering and redistricting; 
persistently low voter participation and low trust in 
government; and foreign adversaries trying to exploit our at-
risk voting technology. But, as you also know, there has been 
an extraordinary pushback, with Americans across the country 
recognizing the urgent need for action.
    This Congress was elected with the highest voter turnout in 
over a century. Many of you were elected pledging to reform our 
democracy as your top priority. And in States and localities 
across the country Americans, passed by large bipartisan 
margins a record number of ballot measures tackling voting, 
redistricting, and money in politics.
    The message is clear: The best way to respond to attacks on 
our democracy is to strengthen our democracy. And that is what 
H.R. 1 does. It includes the key reforms needed to revitalize 
American democracy, and I will highlight three.
    First, as Mr. Bains testified, it must be a top priority 
for Congress to restore the full protections of the Voting 
Rights Act, which the Supreme Court hobbled in the Shelby 
County decision. The absence of these protections enabled many 
of the worst abuses we saw last year and before.
    And building a strong legislative record is key in this 
regard. It is also time sensitive. Without action, 2021 will be 
the first redistricting cycle since 1965 without these 
protections in place, and that could erase a lot of the 
progress communities have made towards fair representation.
    The second reform, and one with the potential to truly 
transform American elections is automatic voter registration.
    Automatic registration is simple but powerful. Every time 
an eligible citizen interacts with the government, whether to 
renew a driver's license or to apply for Social Security 
benefits, she will be automatically registered to vote unless 
she declines. No one will be registered against their will, and 
there is no extra paperwork. If adopted nationally, it could 
add as many as 50 million eligible voters to the rolls.
    We know this reform is popular. In a few short years it has 
been adopted by 15 States and D.C. Many of these States passed 
it with bipartisan support, as they did in Washington State. 
Alaska voters passed it in 2016 with 64 percent of the vote, 
and Michigan and Nevada voters did so this past year.
    We know it works. It is already up and running in nine 
States, and it has been extremely successful. Our research has 
shown that it dramatically increases registration rates in 
nearly every State. In Oregon, rates quadrupled at DMV offices. 
And we also know that it bolsters the security and accuracy of 
our voter rolls while saving money.
    No reform is more important to boost participation and 
improve our elections.
    Third, small-donor matching could also have a profound 
impact on our elections, strengthening the voices and influence 
of ordinary Americans. Despite the celebrated surge of small 
donors in the last election, they accounted for less than 20 
percent of the $5.7 billion spent on campaigns last year.
    But my home city of New York has had a matching system for 
decades, and we have really seen the benefits. It has created a 
political donor base that is far more representative of the 
city as a whole. Donors for city elections are in 90 percent of 
the city's census blocks, while donors in State elections, 
which don't have matching, are more concentrated in wealthy 
neighborhoods.
    It has allowed elected officials to focus on outreach to 
constituents, instead of dialing for dollars and to run viable 
campaigns doing so. Its cost has been modest, only a few 
hundredths of a percent of the city's operating budget and this 
cost has been more than offset by savings from reduced 
corruption.
    Perhaps more than ever Americans understand the problems 
facing our democracy today. They are hungry for bold and 
effective solutions to those problems, solutions like those in 
H.R. 1 and real action on those solutions. We strongly urge 
this Congress to pass it.
    [The statement of Ms. Weiser follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you very much.
    Mr. Wertheimer.

                  STATEMENT OF FRED WERTHEIMER

    Mr. Wertheimer. Thank you, Chairperson Lofgren.
    Chairperson Lofgren, Ranking Member Davis, members of the 
Committee, I appreciate the opportunity to testify today on 
behalf of Democracy 21. We would like to recognize and thank 
Representative Sarbanes and House Speaker Pelosi for their 
outstanding leadership on H.R. 1. I would also like to express 
Democracy 21's support for your legislation, Chairperson 
Lofgren, that addresses the problem of extreme partisan 
gerrymandering in this country.
    H.R. 1 contains a number of campaign finance reforms, which 
we address in our written testimony. My remarks today will 
focus on the legislation sponsored by Representative Sarbanes 
that is incorporated in H.R. 1 and provides for an alternative 
way to finance campaigns.
    An NBC-Wall Street Journal poll last fall found that 77 
percent of registered voters said reducing the influence of 
special interests and corruption in Washington is the most 
important or a very important issue facing the country.
    We need to be clear about this: Influence, money, 
corruption in Washington, and the appearance of such 
corruption, will not stop until a new way is found for Federal 
candidates to finance such their campaigns.
    The new financing system in H.R. 1 would allow candidates 
to run for office without being dependent on or obligated to 
big money or special interest funders. It would empower 
ordinary Americans by making their small contributions more 
important and valuable to candidates. It would greatly reduce 
the power and influence of big money funders by freeing 
candidates who voluntarily choose this system to run 
competitive races for office without the need for their 
financial support. And it would create opportunities for new 
candidates to enter the political process and run for office.
    In the last four elections super-PACs that sprang up in the 
wake of Citizens United raised nearly $5 billion in unlimited 
contributions to spend in Federal elections. During this period 
the top 10 individual donors alone contributed $1 billion to 
super-PACs. That is an average of $100 million per donor. That 
is not how our democracy is supposed to work.
    The success of the Presidential public financing system for 
more than two decades provides a compelling case for the small-
donor matching funds system in H.R. 1.
    We do not know yet how H.R. 1's system is going to be paid 
for, but we do have a track record on a public financing system 
that was paid for by taxpayers. Every Republican nominee for 
President from 1976 to 2008 used that system. Every Democratic 
nominee used it until 2004.
    Presidents Ford, Carter, Reagan, George H.W. Bush, Clinton, 
and George W. Bush, all used the Presidential public financing 
system. They used taxpayer money to become President. Ronald 
Reagan used it three times and used it twice to win the 
Presidency.
    The Democratic and the Republican Party used taxpayer funds 
to pay for their conventions from 1976 to 2012.
    Now, those candidates and the parties never expressed 
concern when they applied for and accepted taxpayer funding.
    The Supreme Court has upheld the constitutionality of 
public financing in Buckley v. Valeo and again in an opinion in 
2011 written by Chief Justice Roberts. The system broke down 
because the costs of campaigns, Presidential campaigns, rose 
dramatically and Congress never adjusted the system. H.R. 1 
will now modernize the system.
    On the point made about H.R. 1 restricting free speech, 
Buckley v. Valeo, McConnell, and Citizens United have all held 
the kind of disclosure set forth in H.R. 1.
    Thank you.
    [The statement of Mr. Wertheimer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairperson. Thank you very much.
    And finally we turn to Secretary Wyman.
    Welcome. You are recognized for 5 minutes.

                     STATEMENT OF KIM WYMAN

    Ms. Wyman. Thank you, Chairperson Lofgren, Ranking Member 
Davis, and the Committee, for inviting me to testify today on 
the election access integrity and security sections of H.R. 1.
    For the record, I am Washington Secretary of State Kim 
Wyman, and I am proud to serve as the chief elections officer 
for a State which currently meets most of the election 
requirements proposed in H.R. 1.
    Washington State conducts all elections by mail with an 18-
day voting window, allows voters to cast provisional ballots 
anywhere in the State, convenes an independent redistricting 
commission, passed a motor voter law 3 years before the 
National Voter Registration Act was signed into law by 
President Clinton, is the second State in the country to 
provide online voter registration, uses voter-verified 
permanent paper ballots in all elections, has mandatory pre- 
and post-election audits and recounts, and we are implementing 
risk-limiting audits, automatic voter registration, the future 
voter preregistration program, and election day registration 
for the 2019 elections.
    Based on 26 years of experience leading the implementation 
of some of the country's most innovative policies and election 
administration, I am testifying with strong concerns on the 
election sections of H.R. 1.
    The greatest strength of American elections in our system 
is our decentralized nature. There are over 9,000 independently 
elected and appointed election officers, like me, who take an 
oath to uphold the U.S. Constitution and the constitution and 
laws of their States to administer elections.
    While Democratic, Republican, and nonpartisan election 
officials across the country share the goal of making elections 
more accessible and secure, H.R. 1 could hinder that progress 
that Washington and other States have achieved. This bill could 
stifle innovation in States now and for decades to come.
    H.R. 1 would enact prescriptive and specific Federal 
regulations on election administration by mandating and 
essentially freezing these 2019 policies and procedures in 
place. It will dramatically increase the cost of conducting 
elections and simply repeat history.
    Passage of the NVRA in 1993 and the Help America Vote Act 
in 2002 marked a tectonic shift in the administration of voter 
registration and elections. Congress narrowly and specifically 
defined how election officers at the State and local levels 
could manage elections. The inherent problem was that both 
these acts rigidly mandated specifically defined processes.
    While these acts were well meaning at the time of their 
passage, they could not contemplate the evolution and 
application of technology.
    Here are two examples.
    First, in 1993, the NVRA intended to increase access to 
voter registration and defined how registration lists could be 
maintained. The act specified paper-based methods for adding or 
removing voters using an innovative tool at the time, the U.S. 
Postal Service National Change of Address system. NVRA could 
not anticipate the impact of the internet or smart phones on 
voter access to information as neither had yet arrived.
    Second, following the 2000 Presidential election, testimony 
in Congressional hearings demonstrated that problems occurred 
with lever machines and punch card voting equipment. HAVA 
eliminated their use in U.S. elections, and Congress provided 
Federal grants to purchase equipment.
    While many election officials chose to update voting 
equipment with paper ballot systems, other jurisdictions opted 
for the newest solution at the time, touch screen voting 
machines.
    Now, 19 years later, State and local election officials 
have aging equipment with no Federal replacement funds. 
Election officials must rely on the State and local legislative 
bodies to provide funding for their equipment and operational 
costs. We are facing the greatest security threat in history 
from cyber criminals, and H.R. 1 adds new costly requirements 
with no identified funds to implement them.
    Ultimately the election administrator's job is to instill 
confidence in the public that every eligible person has the 
opportunity to register and vote and that those votes are 
counted in an accurate, fair, and secure manner. As you move 
H.R. 1 forward, I encourage you not to limit States' authority, 
rather empower them to improve election administration.
    The greatest threat to our election system is partisanship. 
The lasting solutions to removing barriers in elections have 
come from bipartisan efforts that balance access and security 
in our processes.
    H.R. 1 is a good start. My State and local election 
colleagues and I want to work with you to make H.R. 1 
bipartisan legislation that improves elections for everyone.
    Thank you.
    [The statement of Ms. Wyman follows:]
 
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairperson. Thank you very much.
    Thanks to all the witnesses.
    We will now turn to Members of the Committee under the 5-
minute rule for any questions they may have. And I will turn 
first to the Ranking Member, Mr. Davis, for 5 minutes.
    Mr. Davis of Illinois. Thank you, Madam Chairperson.
    And thank you all for your testimony.
    Ms. Wyman, I appreciate you. I know you had a long flight 
out. Thank you for your testimony, and your experience relayed 
for as the impact on what we do here and how it impacts your 
State's ability to put free and fair elections in place.
    Now, in Washington State you had one of the highest voter 
turnouts in 2018. What do you attribute that to?
    Ms. Wyman. Well, I think it is a combination of things. I 
certainly think that vote-by-mail is one of the underpinnings 
of our turnout numbers that historically are higher than most 
of the country.
    But in this election in particular we had a gun control 
initiative on the ballot, and we had a very hot Congressional 
race and other hot races across our State, and I think that 
really what boosts turnout is what is on the ballot. That is 
what motivates voters to turn out.
    Mr. Davis of Illinois. What is on the ballot locally?
    Ms. Wyman. Yes.
    Mr. Davis of Illinois. What is on the ballot locally. Okay.
    Mr. Wertheimer, thank you. I appreciate the context of the 
Presidential Election Campaign Fund, historical context, but I 
noticed that major Presidential candidates stopped using them, 
using those funds in the 2008 election. Was John McCain the 
last one?
    Mr. Wertheimer. Yes.
    Mr. Davis of Illinois. Okay. So Senator McCain, when he ran 
for President in 2008 decided to use the Presidential matching 
funds. About $370 million was in there in the beginning of 
2015? Do you know how much sits in the Presidential Election 
Campaign Fund now?
    Mr. Wertheimer. No.
    Mr. Davis of Illinois. Under the current Presidential 
matching system there is a limit that the candidates who decide 
to use that fund can spend, right?
    Mr. Wertheimer. Yes.
    Mr. Davis of Illinois. Okay. What is that limit now?
    Mr. Wertheimer. I don't know the number, but the reason 
candidates stopped using the system----
    Mr. Davis of Illinois. Well, the reason they stopped using 
it was because they felt they could raise more without it.
    Mr. Wertheimer. Well, they felt the system was outmoded.
    Mr. Davis of Illinois. They felt it was outmoded.
    So what your solution is, what the solution of H.R. 1 is, 
is to allow for $250 million of Federal taxpayer dollars to be 
used by any candidate, right?
    Mr. Wertheimer. That is a maximum amount.
    Mr. Davis of Illinois. A maximum amount.
    Mr. Wertheimer. There is no reason to believe all 
candidates will use that amount.
    Mr. Davis of Illinois. But there are no limitations on how 
much spending can be put in place like the campaigns like there 
is now.
    Mr. Wertheimer. Well, no, no. The reason is the $5 billion 
that was spent by outside spending groups. You can't establish 
a practical spending limit in a system where outside groups can 
spend unlimited amounts and, for example, come into your race--
--
    Mr. Davis of Illinois. So you want the taxpayers----
    Mr. Wertheimer [continuing]. And pour $5 or $10 million in 
at the end of the campaign.
    Mr. Davis of Illinois. I will reclaim my time now, sir.
    You are basically saying, okay, any Presidential candidate 
does not have to make the choice anymore to choose to abide by 
limitations in spending, and we will now make you eligible for 
up to $250 million, and you can still go raise and spend as 
much as you want, which I thought was the problem.
    Mr. Wertheimer. No, that is not what you can do. You can't 
raise as much as you want under existing contribution limits, 
which are now $2,800 per person, because you have to abide by a 
much lower contribution limit of $1,000.
    But we have argued that the major problem in campaign 
financing is the source of the funding, and the Supreme Court 
has recognized that large contributions create the potential 
for corruption and the appearance of corruption.
    The issue here is trying to provide candidates with a way 
to run for office where they don't have to depend on lobbyists, 
on bundlers, on large contributions----
    Mr. Davis of Illinois. What is the cost to taxpayers?
    Mr. Wertheimer [continuing]. But can depend on small 
contributions.
    Mr. Davis of Illinois. What is the cost to the taxpayers?
    Mr. Wertheimer. Of what?
    Mr. Davis of Illinois. Of this new increased taxpayer 
dollar----
    Mr. Wertheimer. We don't have an estimate yet from CBO.
    Mr. Davis of Illinois. You don't have an estimate yet.
    I have got a question for you, Ms. Weiser.
    Looking at H.R. 1 on donor reporting, it is very ambiguous 
and uses some suspect terminology, and I think that could 
result in a dangerous mix.
    I was talking with my team yesterday. I just have a 
hypothetical that I want to run by you to see if this is a 
case, as H.R. 1 moves forward, if we can maybe ensure something 
like this doesn't happen.
    Let's suppose a victim of domestic abuse decided to support 
an organization to educate and assist other victims and donates 
a few hundred dollars a month or up to a thousand dollars a 
month to a group like the National Domestic Violence Hotline. 
Let's say the group runs a short radio ad thanking Speaker 
Pelosi for renewal of the Violence Against Women Act.
    Isn't it true that under the current H.R. 1 provisions this 
ad promotes or supports Speaker Pelosi and that a donor who 
funds its activity, including a victim of domestic violence who 
donated with the expectation that her donation would be 
confidential, would be faced with having her full name and home 
address filed and disclosed on a government website, and maybe 
even the ad itself, merely because of the group's endorsement?
    Ms. Weiser. It is my understanding that the disclosure 
requirements applied only to people who give $10,000 or more.
    Mr. Davis of Illinois. Well, that would be $12,000 in a 
year.
    Ms. Weiser. And they can avoid disclosure by specifically 
specifying that their contribution cannot be used in political 
ads. So that individual can maintain their confidentiality if 
they so please. The disclosure requirements are especially 
placed on the organizations, not on the individuals.
    The Chairperson. The gentleman's time has expired.
    Mr. Davis of Illinois. Thank you.
    The Chairperson. And I will turn now to gentleman from 
Maryland. Mr. Raskin is recognized for 5 minutes.
    Mr. Raskin. Madam Chairperson, thank you very much, and 
thanks for calling this important hearing.
    I want to start just by asking a question about 
gerrymandering. I was quite amazed that when we first took this 
up in the Judiciary Committee there were people defending 
gerrymandering on the Committee who said, well, that having 
politicians draw their own districts keeps the government or 
keeps representation closer to the people as opposed to having 
an independent panel.
    And I am just wondering, perhaps, Ms. Weiser, you could say 
something about the importance of having an independent 
redistricting panel process with criteria that confine the 
level of discretion so that the politicians aren't drawing 
their own districts.
    Ms. Weiser. Absolutely. We have seen in this past decade 
that gerrymandering has gotten more extreme and more durable 
than any other time in the past half century, and that 
partisans have been able to lock in an advantage that has 
lasted, an even unbroken advantage, even in tsunami elections 
like this last----
    Mr. Raskin. Is it fair to say that if politicians are 
drawing their own districts, that redistricting is 
gerrymandering, there is really no difference?
    Ms. Weiser. By and large. And especially when there is 
single party control of the redistricting process, we see 
really extreme gerrymandering. And what that makes is a system 
that is completely nonresponsive to and not accountable to 
voters. And that means that as voters try to change their 
political preferences as their votes change, they do not see 
changes in who is representing them.
    But in contrast we do see in maps that are drawn by 
independent commissions and by courts, where there isn't the 
same kind of interest in the outcome, we do not see the same 
kinds of levels of bias, and we also see better representation 
for communities of interest and communities of color in the 
process.
    Mr. Raskin. Very good.
    Mr. Wertheimer, you have seen several cycles of political 
corruption and reform, so you bring great experience and 
expertise to the task here. I want to ask you about two things.
    One is Attorney General Whitaker appeared before the 
Judiciary Committee the other day, and it turns out that he had 
received $1.2 million when he was working as a 501(c)(3) 
polemicist, essentially, for his political views, but we don't 
know where the money came from. There was a pass-through 
entity, but we don't know where the money originally came from.
    Is there anything in H.R. 1 that would allow us to 
determine on the not-for-profit side where people's money is 
coming from, what is bankrolling them, before they go into 
public office?
    Mr. Wertheimer. Only if the nonprofit is engaged in 
campaign-related activity. It does not cover other activities, 
advocacy or any other kinds of activities. The Court has 
basically--and Congress has focused on disclosure rules that 
apply to entities that are engaged in campaign activity.
    Mr. Raskin. Okay. Let me ask you a question about Citizens 
United.
    I am not seeing too much in H.R. 1 which head-on addresses 
the Citizens United problem. The Supreme Court basically 
toppled two centuries of precedent to say that corporations 
were basically assemblages of citizens, and so the CEO could 
take whatever money he or she wanted directly out of the 
corporate treasury to spend in political campaigns.
    Are you seeing that there is anything in H.R. 1 that 
fundamentally changes this process? And what do you think about 
an idea that I have suggested, which I am calling Shareholders 
United, which would say that the CEOs can't do that without a 
prior majority vote of the shareholders?
    Mr. Wertheimer. Well, I do think there are provisions in 
H.R. 1 that indirectly address Citizens United, since you need 
a Constitutional amendment if you are going to overturn it.
    Allowing you to run for office in competitive races free 
from potential obligation and dependency to the hundreds of 
millions of dollars, the $5 billion that go into super-PACs, is 
one way of addressing Citizens United within the current 
Constitutional restraints.
    There are also ways of strengthening the coordination rules 
to make sure that so-called independent super-PACs are not, in 
fact, operating in coordination with candidates.
    On your point about requiring corporations to get approval 
from shareholders, we haven't closely examined that question. 
It is on the table, and we will take a look at it.
    The Chairperson. The gentleman's time has expired.
    I would now recognize the gentleman from Georgia for 5 
minutes.
    Mr. Loudermilk. Thank you, Madam Chairperson. I appreciate 
the opportunity to weigh in on this piece of legislation.
    Real quick question. Mr. Bains, how long have you and your 
organization been working, participating in helping with H.R. 
1?
    Mr. Bains. Well, my organization has, when asked, provided 
technical assistance to the Hill on a variety of pieces of 
legislation that have made their way into H.R. 1 over time, for 
example, the Government By the People Act. Another example is 
the Save Voters Act that would fix the Husted problem that the 
Supreme Court upheld about Ohio's voter purge.
    So there are a number of examples like this over the years 
that we have provided technical----
    Mr. Loudermilk. But H.R. 1, how long have you working on 
that?
    Mr. Bains. H.R. 1 we have been providing technical 
assistance over the last few months, I would say, as the bill 
came together.
    Mr. Loudermilk. Six months, 8 months?
    Mr. Bains. I am not quite sure of the number of months, but 
8 months sounds long to me. No, I would say a few months. The 
bill really came together toward the end of the year, and that 
is when we started providing technical assistance.
    Mr. Loudermilk. Thank you.
    Ms. Weiser, how long has your organization been working?
    Ms. Weiser. The Brennan Center has been working on the 
issues in H.R. 1 really for more than two decades. We have 
innovated a lot of these reforms. We have been working on 
advancing them at the State level, even working with 
secretaries of state and State legislatures, and working on 
promoting them at the Federal level as well.
    Mr. Loudermilk. H.R. 1, how long?
    Ms. Weiser. And H.R. 1 is something we have been calling 
for really since we first heard about it.
    Mr. Loudermilk. Mr. Wertheimer.
    Mr. Wertheimer. Yes. Well, there are provisions in H.R. 1, 
there are bills in H.R. 1 that we have worked on in general for 
many years. It is a combination of bills. On H.R. 1 itself, 
since people started talking about it we have been involved.
    Mr. Loudermilk. Okay. Well, I appreciate that. Mr. Davis 
and I have been on this Committee now for 3 years, and this is 
the first time that we have met or heard from any of you, and I 
am just a little surprised that this is the first time that we 
have been included in the legislation. So that was why I was 
just wondering how long that you guys have been working on it.
    Mr. Wertheimer. Well, we have never been asked to appear 
before this Committee.
    Mr. Loudermilk. Well, it is not just before the Committee. 
Working on legislation, engaging with both parties is important 
on legislation.
    Secretary Wyman, what was the percentage of voter turnout 
in Washington of registered voters in this last election?
    Ms. Wyman. In the last election? Oh, sure, ask me the one 
thing I didn't actually look up before I came in.
    I don't remember off the top of my head. Very strong, 
though. It was I want to say high to mid-70s. But I can get 
back to you on that one. [According to the Secretary of State's 
website voter turnout as a percentage in 2018 was 71.83 
percent. https://results.vote.wa.gov/results/20181106/
Turnout.html]
    Mr. Loudermilk. Okay. Do you know what the average is in 
Washington of registered voters?
    Ms. Wyman. It depends on the type of election. Even year 
elections, particularly Presidential, are our highest. We 
typically are in the high 70s, low 80s. In off-year elections, 
which we have in our State, usually in the 50 to 60 percent 
range.
    Mr. Loudermilk. Okay. That seems pretty high from what I 
have seen from other States, like Georgia. Even with those 
numbers it doesn't seem that voter registration is the issue 
because you don't have 100 percent of registered voters coming 
out.
    Ms. Wyman. Correct.
    Mr. Loudermilk. Because it was not a really voter 
registration issue.
    Based on your experience, do you see any need that we 
should federalize the registration and voting practices laws 
that are currently within the purview of each State?
    Ms. Wyman. No, I really would like to keep that power at 
the State level and let local election officials and State 
election officials be able to come up with innovative solutions 
to move things forward. As I said in my opening remarks, my 
concern with H.R. 1 is that we are going to lock in very 
specific requirements that won't give a lot of flexibility to 
those local elected officials to solve problems.
    Mr. Loudermilk. Yeah, I mean, from all the elections I have 
been involved with, in most elections that I have ever run I 
have been the least funded of all the candidates, and I 
continually won.
    But I can remember days of 30, 40 percent voter turnout, 
especially in local elections, was considered a high voter 
turnout. And so when you still have 50, 60, 70 percent of 
registered voters not turning out to vote, that doesn't seem to 
be that is the real issue.
    Ms. Weiser, in the beginning there was a little engagement 
between Mr. Aguilar and Mr. Davis joking about campaign 
donations. And I think Mr. Aguilar said, when Mr. Davis said 
when he writes a check to Davis' campaign, he said something 
like, ``That won't happen.'' And I understand that because they 
disagree politically.
    But under this matching program would not we be forcing him 
to make a contribution to Mr. Davis? Wouldn't we be forcing 
every citizen regardless of what they believe politically to 
write a--theoretically spend their taxpayer money for someone 
they disagree with.
    The Chairperson. The gentleman's time has expired, but we 
will certainly have the witness answer your question.
    Ms. Weiser. Thank you. And I would also like to note for 
the record that the Brennan Center has reached out to and 
written to every Member of Congress. We have met with 
Republican offices. And we would be delighted to work with you 
on these issues, as well.
    In response to your question, H.R. 1--is not about giving 
money to politicians, it is about boosting the voices of the 
ordinary Americans who are giving the political contributions. 
And that is actually a strength of the system, not a weakness, 
that the public funds are supporting the candidate of choice of 
the voter and the donor, not of the politicians.
    The Chairperson. Thank you very much.
    I am going turn now to the gentlelady from California for 5 
minutes.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    And thank you to all of you for joining us today.
    I want to talk about an issue of preserving the overall 
integrity of the election process. You know, it just seems 
common sense to me that the only allegiance of a State's chief 
election officer must be to the voters and not to any competing 
political agenda.
    So I think we could agree that an inherent conflict of 
interest exists when a State's chief election official is 
responsible for monitoring and certifying the results of a 
Federal election while actively participating in the campaign 
of one of the candidates in that election.
    This last election season, multiple secretaries of states 
captured national attention and incited great controversy 
because of their political involvement in elections they were 
responsible for overseeing.
    So that is why I have advocated for some time making it 
impossible for the chief elections official to simultaneously 
engage in any sort of Federal election activity, and that 
provision is in H.R. 1.
    So I want to ask all of you, we can start with Mr. Bains--
and if you could respond quickly, probably doesn't take much to 
do that--do you think we should continue to allow a secretary 
of state to be both player and referee? How would you change 
that if you believe that is true?
    Mr. Bains. Representative Davis, we are strong supporters 
of the provision that would require that anyone running for 
office should not be actually running the election. And we saw 
this in this past election in Ohio, in Georgia and Kansas. 
There were three examples of secretaries of state who were 
running for higher office, and it seriously undermined the 
public's confidence. We can't have that anymore.
    Mrs. Davis of California. Thank you so much.
    I am going to go down the line because of our time.
    Ms. Weiser. Yes, we, too, strongly to support the conflict 
of interest provision.
    Mr. Wertheimer. Yes, we do, too.
    Mrs. Davis of California. Thank you.
    And, Madam Secretary?
    Ms. Wyman. I have concerns about the right of association 
that those elected officials have to participate in elections. 
But their voters hold them accountable, and we certainly saw 
that in Kansas and I think see it in other parts of the 
country, too.
    Mrs. Davis of California. Do you think the State of 
Washington voters would like it if you were involved really on 
the major organizing committee for a candidate for Federal 
office?
    Ms. Wyman. Well, as an independently elected official, I 
don't usually do that. I have spent my career in election 
administration. And I do occasionally for friends support their 
campaigns, never get really involved in them, because I think 
the optics are bad. And I really think that it is important for 
me to----
    Mrs. Davis of California. How would you feel as a voter in 
Washington State if you had a secretary of state who was 
involved in a Presidential election, I mean quite visibly?
    Ms. Wyman. I think it is problematic. And, in fact, my last 
election my opponent had done a fundraiser for one of the 
Presidential candidates.
    Mrs. Davis of California. Should we in the legislature here 
then want to do something about that? Because I appreciate your 
concerns, and obviously Washington State has allowed their 
voters great access.
    Ms. Wyman. Yes. It is a balance. It is always striking a 
balance between access and security, and it is always a balance 
between that public perception and maintaining the integrity of 
the process.
    Mrs. Davis of California. Thank you all for your responses.
    I will turn it back.
    The Chairperson. The gentlelady returns her time.
    The gentleman from North Carolina, do you wish to be heard?
    Mr. Butterfield. I do. Thank you very much.
    The Chairperson. You are recognized for 5 minutes.
    Mr. Butterfield. I thank the Chairperson for convening this 
hearing.
    Thank you to the four witnesses for traveling to Washington 
and sharing in this conversation today.
    What the Chairperson did not mention a few moments ago is 
that some of us will be boarding an airplane in a few minutes 
to go to Congressman Walter Jones' funeral down in North 
Carolina and then back tonight to vote to keep the government 
up and running. And so if I leave it is of no disrespect to 
this panel or to the future panel.
    I want to just spend my few minutes, if I can, on the 
Voting Rights Act of 1965. This is a piece of legislation that 
I feel very strongly about. House Democrats feel very strongly 
about it, and we are determined to have full and effective 
enforcement of the Voting Rights Act.
    I had just finished high school in August of 1965 when the 
Voting Rights Act was signed into law. And then, in 1982, I had 
the privilege of being in the Senate gallery when the act was 
reauthorized and the intent standard was removed from the law 
and the effects standard was replaced, and that was a great 
day.
    And so we have benefitted in the South significantly, 
particularly in the South, significantly from full enforcement 
of the Voting Rights Act.
    When the Voting Rights Act was first enacted into law there 
were very few African Americans in the South who were 
registered to vote. In fact, in Shelby County, Alabama, there 
were no African Americans, I am told, at least in Selma, 
Alabama, there were no African Americans registered to vote, 
but the Voting Rights Act has transformed the political 
landscape of the South and it is a good piece of legislation.
    The problem is that on June 25 of 2013 the Supreme Court in 
a split decision, 5-4 decision, invalidated section four of the 
Voting Rights Act but kept in place section five.
    And so Chairwoman Fudge's Subcommittee will be traveling 
the country over the next few weeks and months to hold field 
hearings to get public input as to what we should do with 
section four. And so I want to enlist all of you in the process 
and if you would please keep us informed.
    Mr. Wertheimer, I was particularly impressed with your 
terminology ``extreme partisan gerrymandering,'' I use that as 
I go around the country talking about redistricting, because 
since the beginning of the country States have always engaged 
in partisan gerrymandering.
    But we have reached a point now in our history when it has 
risen to the level of extreme partisan gerrymandering. And it 
is due in part to political greed. It is due in part to the 
availability of technology and being able to do predictive 
modeling when drawing lines. And so I want to thank you for 
using that terminology.
    You and I both know that the Supreme Court is taking up a 
Maryland case, Mr. Raskin, and a North Carolina case, in a few 
weeks on this subject, and we don't know what that holding will 
be. I know what you and I hope it will be. We focused for years 
on racial gerrymandering, but now we are awaiting the decision 
on political gerrymandering.
    And so I guess my question to you, sir, is section two is 
still the law of the land under the Voting Rights Act, and that 
is undisturbed, but section five is not enforceable. Has your 
organization had any involvement with raising public awareness 
of the importance of section five? It is a very valuable tool 
in the voting rights enforcement arena.
    Mr. Wertheimer. Well, we agree that it is a critical tool. 
We disagreed with the Supreme Court's decision. This is not an 
area that we have been active in as such, except as part of 
supporting H.R. 1, and we will support the efforts of the 
Voting Rights Restoration Act.
    Mr. Butterfield. Would any of the other, either of the 
other panelists?
    Mr. Bains? Is it Dr. Bains or Mr. Bains?
    Mr. Bains. Mr. Bains. My mother is disappointed I didn't 
become a doctor.
    Mr. Butterfield. Yes, right.
    Mr. Bains. But, yes, the Voting Rights Act is a priority 
for Demos. As you pointed out, Representative Butterfield, the 
Voting Rights Act has been a signal piece of legislation, the 
most effective civil rights act in our history, that brought 
people of color into the electorate. It is vital that act be 
restored by the creation of a coverage formula that goes back 
into place and puts States like Texas, which we just sued, back 
under preclearance. They would not have been able to initiate 
the voter----
    Mr. Butterfield. Section two is still the law of the land.
    Mr. Bains. It is.
    Mr. Butterfield. We can still litigate cases under section 
two. And I am a former voting rights attorney and so I know the 
answer to the question, but I want to get it into the record. 
What is the cost of a section two lawsuit versus the cost of a 
section five inquiry?
    The Chairperson. The gentleman's time has expired, but the 
witness can briefly answer.
    Mr. Bains. Thank you, Chairperson.
    Section two lawsuits are extremely expensive and resource 
intensive. I worked at the Justice Department on voting rights 
issues. They cost millions and millions of dollars and they 
take years and years to occur. Section five must be restored.
    Mr. Butterfield. The cost of Section five? Zero?
    Mr. Bains. It is not zero because there is staff time that 
goes into it, but it is minimal by comparison.
    Mr. Butterfield. Thank you. I yield back.
    The Chairperson. We have two more members who may wish to 
be recognized.
    Does the gentlelady from Ohio wish to be recognized for 5 
minutes?
    Ms. Fudge. Thank you very much, Madam Chairperson.
    Thank you all for being here. I will be brief.
    First off, I am from Ohio, so clearly I understand what is 
going on with our Secretary of State. We would say it a 
different way. We would say it is the fox watching the hen 
house. That is the terminology we would use in blue-collar 
Ohio. And I do believe there has been a systematic and ongoing 
attempt to disenfranchise voters in the State of Ohio.
    Even Justice Roberts said that discrimination still exists, 
and no one doubts that. So please tell me what provision of 
H.R. 1 would you think would be effective in alleviating the 
continued effects of racial discrimination in voting? Mr. 
Bains, and then Ms. Weiser.
    Mr. Bains. Well, clearly, Representative Fudge, the 
commitment that is in H.R. 1 to restore the Voting Rights Act 
is paramount, because the Voting Rights Act is the best tool we 
have to stop racial subordination that occurs in the voting 
process.
    I would also say that the provision that prevents voter 
purges, like of the sort that occurred in your home State of 
Ohio and that we sued over, is key, the Save Voters Act. It 
will prevent States from purging non or infrequent voters, 
targeting people because they don't vote for a couple of years 
and putting them on a process to kick them off the rolls.
    Those kinds of processes have discriminatory impacts. In 
Ohio a study was done showing--looking at areas in Cincinnati--
people who were purged at over twice the rate from communities 
that were majority black neighborhoods as from majority white 
neighborhoods. So that is a key and important provision.
    Ms. Fudge. Thank you.
    Ms. Weiser.
    Ms. Weiser. Thank you, Representative Fudge.
    We do concur that renewing the Voting Rights Act is 
critical to address race discrimination.
    But there is a whole range of other voting rights 
provisions in H.R. 1 that set minimum Federal standards that 
actually prevent the kind of shenanigans that have been used in 
a discriminatory way to restrict access to voting. Things like 
modernizing voter registration, whether it is by updating the 
voter purges, putting in place protections for voter purges, or 
putting in place automatic and same-day voter registration, so 
that the voter rolls can't be manipulated in order to 
discriminatorily exclude certain groups of voters.
    Early voting, a nationwide standard, in your own home State 
there were cutbacks, discriminatory cutbacks targeting days 
where African American voters were much more likely to vote.
    So that these minimum standards will also make a big 
difference.
    Ms. Fudge. Thank you.
    Last question, Mr. Wertheimer, we have been talking about 
gerrymandering. Can you tell me how commissions are put in 
place such that they take into consideration diversity in 
gender and in race?
    Mr. Wertheimer. Well, that depends right now on the State 
rules that are adopted when they create independent 
commissions. But I think there is an effort in H.R. 1 to ensure 
that those kinds of standards are put in place with new 
independent commissions.
    Ms. Fudge. I yield back, Madam Chairperson.
    The Chairperson. The gentle lady yields back.
    Mr. Aguilar is recognized for 5 minutes.
    Mr. Aguilar. Thank you, Madam Chairperson.
    Secretary Wyman, I wanted to ask you specifically, you 
talked about your mail program. That was instituted in 2011. Is 
that correct?
    Ms. Wyman. Moving to vote by mail, that is when our entire 
State became a vote-by-mail State. We have been migrating to it 
since probably the early 1980s.
    Mr. Aguilar. And you had a hybrid system before then?
    Ms. Wyman. Yes.
    Mr. Aguilar. So you had vote-by-mail, but you also had 
polling locations. But now it is all vote-by-mail?
    Ms. Wyman. It is all vote-by-mail.
    Mr. Aguilar. Can you talk to me a little bit about the 
benefits of that program? I want to make sure that we discuss 
the point briefly about voter participation. And obviously you 
said there are some other external factors, right, competitive 
elections and other things that raise that participation rate.
    But do you feel that you and your colleagues in other 
States, that you can do both, increase voter participation 
levels, as well as increase the number of total registrants? 
Don't you have to do both, it isn't just an either-or?
    Ms. Wyman. They go hand in hand certainly. Our State, 
really, our linchpin for our system is the signature 
verification, and I know that that has been front and center in 
a number of issues across the country. We base it off the voter 
registration signature, and we train our local election 
officials each year with the Washington State Patrol to verify 
that.
    We build a lot of confidence, I think, with the electorate 
on both sides, that the people that are voting, casting their 
votes, are the actual people that should be.
    Mr. Aguilar. In the State of Washington is it a partisan 
issue? Do you see folks on one side or the other say that this 
is a bad system and this is fraught with issues?
    Ms. Wyman. Of course we do. It is the nature of elections. 
Yes, I mean. And that is really what our job is, is to make the 
most progressive Democrat, the most conservative Republican 
believe the results were accurate, fair, and reflect how people 
voted.
    And one of the things that I like to get on the record is, 
I really would like to invite all of you to speak to your local 
election officials, speak to your secretaries of state, to get 
input on kind of the technical elements of H.R. 1. That is 
where I think we have been out of the process, and I think it 
would help you make this very workable at the local level.
    Mr. Aguilar. Thank you. I appreciate that.
    I yield back, Madam Chairperson.
    The Chairperson. The gentleman yields back.
    Mr. Davis has been asked to be recognized for a 10-second 
comment.
    Mr. Davis of Illinois. Thank you.
    Ms. Weiser, I appreciate the Brennan Center's willingness 
to meet with the Republicans, but I checked with my office, as 
the Ranking Member and as one of the most senior members on 
this Committee, I don't have any scheduling requests to meet 
with you.
    I would love to talk to you about redistricting reform. I 
am from Illinois. We would love to have your support for 
redistricting reform efforts there.
    Thank you.
    The Chairperson. Thank you, Mr. Davis.
    I would just note, before we leave for Mr. Dingell's 
funeral, that although many of us here disagreed with the 
Supreme Court on the Citizens United decision, eight of the 
nine justices, in reaching that decision, emphasized the 
importance of disclosure and transparency.
    And, in fact, Justice Scalia wrote that--and this is a 
quote--``Requiring people to stand up in public for their 
political acts fosters civic courage, without which democracy 
is doomed.''
    I think H.R. 1 would go a long way towards meeting Justice 
Scalia's advice in that case.
    And with that, we will be recessed until 1 o'clock for our 
next panel.
    Thank you very much to the witnesses.
    [Recess.]
    The Chairperson. Well, welcome, everyone. The Committee on 
House Administration is back in session.
    First, let me offer my apologies to the witnesses and our 
colleagues and the audience. Many of us were at the funeral for 
the late John Dingell. It was a beautiful ceremony, but it was 
also a lengthy ceremony, and that is why we are somewhat 
delayed.
    However, we are eager to hear from our witnesses. We gave 
our opening statements this morning, so I am going to go right 
to the introduction of our witnesses.
    First, we have Alejandro Rangel-Lopez, who is a first-
generation Mexican American who was born and raised in Dodge 
City, Kansas. He currently serves as the student council 
president, National Honor Society vice president, and is the 
co-plaintiff in LULAC and Rangel-Lopez v. Cox lawsuit, which 
has to do with the voting rights case from last election.
    We have also Peter Earle. Peter Earle is a Wisconsin civil 
rights lawyer. He emigrated to the United States in 1955, 
graduated from Chicago College of Law with high honors, and has 
served as a law clerk to the Honorable Myron Gordon of the 
United States District Court for the Eastern District of 
Wisconsin.
    We have as well Brandon Jessup, who is a data science and 
information systems professional from Detroit, Michigan. He is 
the executive director of Michigan Forward, a Michigan-based 
nonprofit organization for data analysis.
    Finally, we have Mr. David Keating, who is the president of 
the Institute for Free Speech. Prior to joining the Institute 
for Free Speech, he was executive director of the Club for 
Growth, and prior to that, worked for many years as the 
executive vice president of the National Taxpayers Union.
    We welcome all our witnesses. We are operating under the 5-
minute rule. Your full written statement will be made part of 
the record. So we ask that you summarize your statement. And 
when your 5 minutes is up, a red light will go on, and we don't 
cut you off, but if you could summarize at that point, that 
would be very helpful.
    We will start with you, Mr. Rangel-Lopez.

STATEMENTS OF ALEJANDRO RANGEL-LOPEZ, SENIOR AT DODGE CITY HIGH 
  SCHOOL, DODGE CITY, KANSAS, AND PLAINTIFF IN LULAC & RANGEL-
LOPEZ V. COX; PETER EARLE, WISCONSIN CIVIL RIGHTS TRIAL LAWYER; 
    BRANDON A. JESSUP, DATA SCIENCE AND INFORMATION SYSTEMS 
 PROFESSIONAL, EXECUTIVE DIRECTOR, MICHIGAN FORWARD; AND DAVID 
         KEATING, PRESIDENT, INSTITUTE FOR FREE SPEECH

              STATEMENT OF ALEJANDRO RANGEL-LOPEZ

    Mr. Rangel-Lopez. Thank you, Chairperson Lofgren and 
members of the Committee, for this opportunity to speak to you 
today. My name is Alejandro Rangel-Lopez, and I am a senior at 
Dodge City High School in Dodge City, Kansas. I serve as 
student council president, National Honor Society vice 
president. I participated in policy debate for 4 years and was 
recently chosen as an alternate to represent Kansas for the 
U.S. Senate Youth Program.
    My parents are immigrants from the states of Guerrero and 
Veracruz, respectively, in Mexico, and they came to the United 
States for the same reason that everyone else did and continues 
to do so: to reach for a dream that isn't attainable where they 
are from. That dream led them to the city that I call home, to 
work in the two beef-packing plants that fuel the economy of 
southwest Kansas.
    And by no means is this story unique. Thousands of people 
from every corner of the world have arrived in Dodge City to 
forge their own path and to create a better future for their 
children.
    Being a first-generation Mexican American, I grew up 
figuring out what that meant. I celebrated Dia de los Muertos, 
grew up with the traditions that my parents instilled in me, 
while also learning English in preschool and the origin of this 
great Nation. I sang the Kansas State song, ``Home on the 
Range,'' on Kansas Day, and over many years came to the 
conclusion that nothing beats a Kansas sunset.
    But I can't say there haven't been any issues. For two 
decades, Dodge City only had one polling place for nearly 
13,000 voters. And while that is bad enough to make it one of 
the most heavily burdened polling sites in the State, it was at 
the very least centrally located, which can't be said about the 
location that was chosen for the 2018 midterm elections. It was 
located south of town, out of city limits, a mile from the 
closest bus stop.
    Worse, the county clerk sent out the wrong address to new 
voters, sending them to a now-closed polling location. I fully 
expected to cast my first vote at the Civic Center where I had 
watched my dad vote every election year that I can remember. 
But this new site wasn't accessible by public transportation, 
and that would negatively impact minority and low-income voters 
the most.
    I could not sit idly by as it happened. For a long time, 
other community members had voiced concerns to the county clerk 
about having only one polling site, but their words fell on 
deaf ears.
    After years of failed attempts to contact our clerk about 
finding a resolution before the election, I, along with the 
League of United Latin American Citizens, became plaintiffs in 
a lawsuit challenging the clerk's actions and asking for a 
resolution before midterms.
    While we were unsuccessful in finding relief for the 
midterms, it played a pivotal role in pushing her to open the 
two new polling sites that are located inside the city limits 
for future elections.
    We rely on our elected officials to make the right choices, 
and for a county clerk, that job was to make voting as easy as 
possible in the county that she represents. Unfortunately, that 
is not what happened, and the issue required national attention 
and nearly $100,000 of taxpayer money for legal fees, fighting 
our efforts to make polling places more accessible.
    The story I just described to you is not unique either. 
People across the country, from Georgia, to North Dakota, to 
Texas, and my home State, are making it more difficult for 
citizens to vote, rather than expanding our democracy.
    We often think that the biggest threat to the American 
electoral system is foreign interference, and while those 
concerns are justified, it is also true that many of the 
measures undermining voter access are being committed by the 
officials elected, or selected, to protect people's voting 
rights.
    When people vote, our democracy becomes stronger. That is 
why I support H.R. 1. If we had the guidance of this 
legislation where it is recommended that all polling places are 
accessible by public transit, then we could have avoided what 
happened in Dodge City. It is a significant step towards a more 
just system that solves a lot of the issues we see today.
    Kansan Dwight D. Eisenhower said, ``A people that values 
its privileges above its principles soon loses both.'' I choose 
our principles, which I learned early in my journey as a Kansan 
guide us toward the stars through difficulties, and I hope you 
do the same.
    Thank you.
    [The statement of Mr. Rangel-Lopez follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you very much.
    Mr. Earle.

                    STATEMENT OF PETER EARLE

    Mr. Earle. Thank you, Madam Chairperson, members of the 
Committee.
    I am here to tell you the true story about how a Texas 
billionaire CEO secretly gave $750,000 to a dark money group in 
exchange for legislation that would retroactively block 173 
severely lead-poisoned children from holding the company 
accountable.
    The Texas billionaire was Harold Simmons, and his company, 
NL Industries, formerly known as The National Lead Company, 
made the Dutch Boy line of paint. The 173 lead-poisoned 
children are my clients, and I filed their lawsuits in the 
State and Federal courts of Wisconsin between 2006 and 2011.
    The only reason this story is publicly known is because 
years after the secret six-figure donation and subsequent 
sweetheart legislation, a trove of previously secret emails and 
checks were released to The Guardian newspaper by a very 
valiant whistleblower.
    It is a sad day for our democracy when a rich and powerful 
corporate CEO can deprive innocent victims of lead poisoning 
their day in court just because he could afford to secretly 
donate huge sums of money to greedy and ruthless politicians.
    This is even more egregious when one considers that these 
former lead paint companies knowingly caused the single most 
catastrophic environmental public-health catastrophe affecting 
children in U.S. history.
    Wisconsin's lead poisoning level among children is higher 
than the National average, and disproportionately affects 
people of color, children of color. Ten percent of African 
American children in Wisconsin age 6 and under are lead 
poisoned, compared to 2.9 percent of White children.
    In 2005, the Wisconsin Supreme Court ruled that lead-
poisoned children could sue former lead paint manufacturers 
without having to prove which individual manufacturer made the 
lead pigment that poisoned the child that was ingested. The 
legal theory is called risk contribution.
    The former lead paint companies were outraged by this very 
commonsense decision. They took the battle over the 
constitutionality of risk contribution all the way to the 
United States Supreme Court, and they lost.
    When Republicans swept to power in Wisconsin in the 2010 
election, the first thing they did was to try to close the 
courthouse doors that had been opened to lead-poisoned children 
5 years earlier. Governor Scott Walker and the new Republican 
legislature passed legislation to immunize former lead paint 
manufacturers from future liability. NL Industries and other 
lead paint manufacturers spent six figures lobbying in support 
of that legislation.
    But since the legislation only affected future lead 
poisoning cases, it did not get rid of the pending 173 lawsuits 
of my clients. NL Industries and Sherwin-Williams pushed the 
legislature to make the law retroactive.
    In January of 2012, the State senate introduced a bill, 
S.B. 373, to shield NL Industries from accountability to these 
children. I attended that hearing on that bill, along with 
about 12 of my clients and their parents. The hearing was very 
contentious. I demanded that the committee members look into 
the eyes of my children and explain to them how it is that 
wealthy corporations can retroactively change the law in their 
pending lawsuits, midstream, while throwing these children 
under the bus as if they were human garbage.
    An optimist would conclude that the innocent, beautiful 
faces of these little children must have had an effect on those 
legislators, because the bill died in committee a few months 
later. A sober observer might have concluded that the sunshine 
of public attention on the bill must have had a sanitizing 
effect. But in reality, neither of those two things happened.
    What happened was the lead paint companies retreated one 
step back as a temporary retreat before striking again. In the 
predawn hours of June 5, 2013, a legislator very quietly 
slipped a retroactive immunity provision into the State budget, 
on page 466 of a 532-page budget, with just four words that 
said, referring to lawsuits, ``whenever filed or accrued,'' 
meaning that the immunity applies to all cases, whenever filed 
or accrued. That four-word amendment--oh, okay. I will pause 
and----
    The Chairperson. Well, you can wrap up, but then we have 
reached our 5 minutes.
    Mr. Earle. This is a horrible story about dark money. And I 
feel like I am a straggler on a desert, desperately looking for 
water, and I pray that H.R. 1 is not a mirage.
    Had we known about what was going on under the table, had 
we known about the $750,000 that bought retroactive 
legislation, the public would have had an opportunity to say 
something about it. Those legislators would have been 
accountable.
    Thank you very much.
    [The statement of Mr. Earle follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you, sir.
    Mr. Jessup.

                 STATEMENT OF BRANDON A. JESSUP

    Mr. Jessup. Good afternoon, Chairperson Lofgren and members 
of the Committee on House Administration. I am Brandon Jessup, 
resident of the State of Michigan, and for most of my adult 
life I have worked to improve democracy in the neighborhood and 
at the ballot box.
    This work began on my 20th birthday, September 12, 2001, 
when I joined the Eastern Michigan University chapter of the 
NAACP, Youth and College Division. I am sure this may mirror 
many actions of many of America's youth post-9/11, but I also 
had some additional inspiration in my life along the way. And 
that inspiration has guided me to stand on the shoulders of 
Coleman Alexander Young, Bayard Rustin, Coretta Scott King, and 
Barack Obama, to bring progress home through our society's 
challenges.
    I am the child of three products of America's Great 
Migration. My birth parents were too young to participate at 
the time, yet the influence of big money in politics has shaped 
their lives and mine far before I was born.
    Like in many Southern States, it was a known fact that 
Louisiana's adoption institutions, or any public institutions 
for that matter, weren't necessarily kind to little black boys.
    Being my mother's second child in as many years, 
arrangements were made for an informal adoption to secure a 
good home her incoming baby boy. That good home landed me in 
Detroit, Michigan.
    My upbringing helped me to expand on these values of civil 
rights, black liberation, and the women's rights movements my 
parents lived. My father and stepfather pushed forward north to 
find employment from sharecropping in Tennessee and Kentucky, 
respectively. They found home in the United Auto Workers and 
gainful employment.
    My mother did the same, coming from Tennessee, moving up, 
pulling herself up from her bootstraps, earning her nursing 
degree at a local community college, and then soon joined the 
Michigan Nurses Association and joining her membership in the 
church and, of course, the United Auto Workers as well.
    These experiences helped me to understand that voting is a 
service required for the privilege of democracy, and our 
consistent participation in it improves the entire American 
experience.
    The policies proposed in H.R. 1, the For the People Act of 
2019, heed citizen-led movements in States across this country 
for a better democracy that is ethical, efficient, and 
transparent. Big money in politics has replaced the heavy stick 
of violence and oppression to deploy voter suppression over 
broader communities through sophisticated gerrymandering and 
dark money.
    This past decade in Michigan has left great marks across 
our Nation's application of democracy and on our society. As a 
response to the Great Recession of 2009, conservative 
organizations and advocacy groups worked with State 
institutions to introduce sweeping legislation that would 
disempower citizens by removing their elected officials with 
appointed overseers, increasing taxes on seniors and 
pensioners, while divesting from public services and 
infrastructure.
    Michigan's new emergency manager law, protected by a 
gerrymandered State legislature and congressional delegation, 
caused a chain of events that would lead to the largest 
municipal bankruptcy in the United States and over 10,000 
children in the city of Flint being poisoned with lead.
    April 25 will mark the fifth year of the Flint water 
crisis, 1,825 days of using bottled water to cook, eat, and 
clean, a sad anniversary that clean water advocates like 
Nayyirah Shariff, Bishop Bernadine Jefferson, and Ms. Claire 
McClinton remind me of daily. This injustice continues to be 
fueled by malfunctions in our democracy that reward 
corporations over citizens and profits over people. I am asking 
this Committee to set the course correctly, to put ethics back 
into our democracy.
    In the spring of 2011, a nonpartisan campaign started with 
people who looked just like me began to push against Michigan's 
emergency manager law, to repeal that law. This was successful 
in its effort and gained over 75 of our 83 counties' support.
    Unfortunately, due to more dark money in our system, 
through Michigan's lame duck process, that will of the voters 
was overturned and replaced with a whole new section of law 
that would place dictators right back over our democracy.
    We also would find that in the dead of night collective 
bargaining would be taken away from us. And also, over the next 
4 years, we would see big money in politics keep the Flint 
water crisis as a quiet set-aside that no one wants to talk 
about.
    But it is because of that great spirit of fighting and 
working that Flint Rising and the American Civil Liberties 
Union of Michigan have remained on the ground fighting for 
justice.
    I want to make sure I keep in my time here and talk about 
some of the most proactive ways that we can fight this.
    Over 40 years ago, Michigan pioneered new techniques to 
encourage residents to register to vote. This ingenuity led my 
Michigan's first African American to be elected to the 
statewide office, Secretary of State Richard Austin, was also 
the first of its kind in the Nation. It was also the last set 
of reforms our State would see in almost 40 years.
    In November 2008, with a near supermajority of voters, we 
approved constitutional amendments to end gerrymandering and 
provide commonsense reforms to make voting accessible to all. I 
am proud to say that I helped to lead this change to bring over 
300,000 new voters to cast ballots in 2020. This is through 
same-day regulation and no-excuse absentee voting.
    It is because of citizen-led efforts like this across this 
country, in Florida, Ohio, Missouri, and other places, that are 
pushing democracy to be what it should be in America.
    Thank you for your time, and I yield.
    [The statement of Mr. Jessup follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairperson. Thank you very much, Mr. Jessup.
    Now we welcome hearing from you, Mr. Keating.

                   STATEMENT OF DAVID KEATING

    Mr. Keating. Thank you, Chairperson Lofgren, Ranking Member 
Davis and members of the Committee, for inviting me to testify 
today. I appreciate that very much.
    Free speech for all, that is what we stand for, and that is 
the goal of our First Amendment to the Constitution. I think it 
is an important reason why America is the best country in the 
world. Free speech enabled the civil rights movement to be 
successful, LGBTQ rights, tax reform, and many issues too 
countless to name here.
    But before a nonprofit group speaks out, should we make 
them spend thousands or tens of thousands of dollars to hire an 
attorney to find out if it is okay or legal to speak? Should we 
make them fill out reams of paperwork to file with the Federal 
Election Commission? Should we make them declare on a 
government form what candidate they back with their speech, 
when in fact they are not backing anyone at all? Should we have 
their podcast ad contain 18 seconds of legalese?
    I say we shouldn't. But, unfortunately, H.R. 1 has all 
these provisions and more. This harms free speech. This hurts 
the nonprofit groups trying to work for social change and a 
better America. In fact, there are many provisions in this bill 
that clearly violate the First Amendment.
    It reminds me of a famous case back after the 1971 Federal 
Election Campaign Act was passed. Back in 1972, three 
principled elderly people took out an ad in The New York Times. 
The ad criticized Nixon's secret bombings of Cambodia. It 
called for Nixon's impeachment and listed an honor roll of 
Members of Congress who stood up against the bombings.
    But you know what? Nixon's Justice Department used this new 
law to sue these elderly individuals saying they violated the 
Campaign Finance Act. The Justice Department threatened The New 
York Times with a criminal prosecution if the ad ran again.
    Fortunately, they won in court. The court said this type of 
restraint on speech was unconstitutional.
    But, unfortunately, many of the provisions in that original 
act that were struck down are quite similar to some of the 
provisions in H.R. 1. I hope you will listen to people who are 
counseling you on this and fix that before passing it.
    Other sections of the bill would violate the privacy of 
advocacy groups and their supporters, or stringently regulate 
speech on the internet, which is, I think, the most accessible 
place of all for small grassroots groups to speak. It would 
radically change the interpretation and enforcement of these 
complex laws, and instead of a bipartisan structure where one 
party can't go after the other, we would have a FEC headed up 
by a speech czar and under partisan control.
    The proposal would also force Americans to pay for the 
speech of candidates they don't like. It would inevitably lead 
to government subsidies for speech by bigots and racists. These 
are only the tip of the iceberg of some of the issues we see in 
H.R. 1.
    I want to give an example of one of the provisions that we 
think is unconstitutionally vague. Much of the bill is based on 
regulating speech that promotes, attacks, supports, or opposes 
a candidate, but we don't know where that line is. Clearly, if 
you endorse a candidate, that is covered.
    But let's think of some examples here. Let's say a 
government employees union wants to take out an ad during the 
government shutdown and says: ``Government employees should not 
be held hostage to Trump's border wall. It is time to end the 
government shutdown.''
    Does that attack President Trump, or is it just calling for 
an end to the shutdown? We don't know. If it is an ad attacking 
Trump, and the union violated some of the conduct provisions in 
the bill, which in and of itself are very problematic, the 
speech would be banned completely; the ad would be illegal.
    And then I want to talk about some of the disclaimers. 
Consider an environmental group running a radio ad calling on 
President Trump to reduce air pollution. Here is the disclaimer 
for this fictional group: Paid for by Americans for the 
Environment, CleanEnvironment.org, not authorized by any 
candidate or candidates' committee. I am Jane Doe, the 
president of Americans for the Environment, and Americans for 
the Environment approves this message. Top two funders are 
first name, last name, and first name, last name.
    I mean, if you have paid for the ad, obviously, you have 
approved it. Why do we need to say 55 words of legalese instead 
of the message? I think back to the ``I have a Dream'' speech 
and some of the most powerful phrases in that speech were 30 to 
35 words.
    So we think the best way to give the people a voice and 
protect democracy is to protect and enhance the right to free 
speech. Let's make it simpler to speak, not harder.
    Thank you.
    [The statement of Mr. Keating follows:]
 
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairperson. Thank you. Thank you very much.
    Thank you to all the witnesses.
    We will now allow members of the Committee to ask 
questions, and I will turn first to the ranking member, Mr. 
Davis, for his time.
    Mr. Davis of Illinois. Thank you, Chairperson Lofgren.
    And thank you again to my new Committee members, and ones 
who served before, for discussing this very important issue.
    Mr. Rangel-Lopez, I have twin boys that are your age, and 
they got to also, like you, cast their first vote in this 
election. There were some days they would actually threaten to 
not vote for me, but I am convinced after a while they did.
    I appreciate your story. And we want to get more young 
people in the political process. And for you to be here, your 
testimony was very well laid out. And I want to say thank you 
personally on behalf of all of us here in Congress for your 
advocacy. We would like to see more of it in your generation in 
the years to come. So thank you very, very much.
    Mr. Keating, I will start with you.
    Your organization is a 501(c)(3), correct?
    Mr. Keating. Yes.
    Mr. Davis of Illinois. Okay. So what is your organization's 
mission?
    Mr. Keating. It is to protect and enhance free speech 
rights. We represent clients in court on cases protecting those 
rights.
    Mr. Davis of Illinois. As written, would H.R. 1 hinder your 
mission?
    Mr. Keating. Well, it wouldn't hinder our mission, but a 
lot of clients that we represent, it would definitely hinder 
their mission.
    Mr. Davis of Illinois. Well, in your testimony you 
mentioned that H.R. 1 would make it harder for groups to speak 
about the Federal Government. You threw out an example with the 
unions possibly doing ads against the President. Can you expand 
on that? What other types of organizations, what other examples 
may you give?
    Mr. Keating. Well, I would say virtually any organization 
that has ever contacted your office to talk about a public 
matter would be affected by this bill. Every single one.
    Mr. Davis of Illinois. Any small not-for-profit in my 
district, Food Pantry, for example, who may be advocating for 
me to support certain programs in the farm bill?
    Mr. Keating. I would think absolutely. In fact, I think the 
smaller groups would be hurt the most. Because the bill is so 
complex, and we already have an extremely complex law as it is, 
but this is so complex that you would be a fool to speak about 
government policy if you didn't have a lawyer advising you. And 
the small groups can't afford attorneys.
    Mr. Davis of Illinois. Do you believe the 30-second ads 
that we now all see on TV might have to become 60 because of 
the legalese?
    Mr. Keating. Well, most groups can't afford to buy more 
airtime.
    Mr. Davis of Illinois. I am well aware of how much it 
costs.
    Mr. Keating. Yes. Look, if it says paid for by the group, 
that should be enough, I think.
    Mr. Davis of Illinois. All right.
    So this bill also, sir, creates an FEC, Federal Election 
Commission, that would be partisan instead of evenly balanced 
like our current Franking Commission that exists here in the 
House of Representatives is 3-3. And I will let you know, my 
co-chair, Mrs. Davis, in the last Congress we worked to open up 
provisions in a very bipartisan way.
    Now, if this provision were to become law, how do you 
believe a Presidential partisan appointment of a chairman, who 
would exert greater control over the commission, with a makeup 
that requires bipartisan support, how do you think it will 
become anything less than a political weapon for whatever party 
holds the White House?
    Mr. Keating. Well, you have to keep in mind, when Congress 
created the FEC it was in the wake of Watergate. Nixon had an 
enemies list. He was happy to use the powers of government to 
punish his political enemies. And that is one reason why the 
Congress set it up that way, so it couldn't be used in a 
partisan manner.
    And this morning at the hearing, I heard some excellent 
points about extreme partisan gerrymandering. Fox is guarding 
the hen house, I think I heard that as well. So there is 
concern about partisan uses of campaign things.
    We don't ever, ever want the Federal Election Commission to 
be used for partisan reasons. And having it balanced, I think, 
is something that is a huge bulwark of enforcement so that 
won't happen.
    Imagine what people would think if a President's appointee 
was using the FEC in a partisan manner. I can't think of 
anything more that would increase distrust in government more 
than that.
    Mr. Davis of Illinois. Well, thank you for your comments 
there.
    And as I mentioned earlier this morning, being from 
Illinois, redistricting reform is a priority of mine. And it 
seems many of the issues that we face that are being discussed 
here today in regards to the Federal level actually exist on 
the State and local level. You don't have to look too far than 
the northeast corner of my State and different governmental 
entities.
    Also, last question, H.R. 1 would establish a six-to-one 
public match for small-dollar contributions under $200. What 
are your thoughts on publicly financed elections?
    Mr. Keating. Well, I think this proposal is a huge risk. We 
don't know what the actual ultimate effects will be.
    I think two effects are clear. One, we will see government 
massive subsidies for speech by hate candidates. Lyndon 
LaRouche, I just read his obituary. He ran on conspiracy 
theories, anti-Semitism, homophobia, and racism, and it was all 
subsidized courtesy of the American taxpayer.
    The other thing that I think is very likely to happen is 
the political parties are going to be more reliant on big 
contributions. And that is because the average donor is going 
to want to give to candidates where it is matched six to one, 
but the parties get no match.
    Mr. Davis of Illinois. Thank you.
    The Chairperson. Thank you, Mr. Davis.
    The gentleman from Maryland is recognized for 5 minutes.
    Mr. Raskin. Madam Chairperson, thank you.
    Mr. Earle, you told a grim and fascinating story. As I 
understand it, there were 173 kids who you allege were injured 
by lead paint. They all live in Wisconsin. And then you brought 
a lawsuit, a tort presumably, class action suit on behalf of 
the kids.
    Mr. Earle. They were individual suits.
    Mr. Raskin. Individuals in the State of Wisconsin.
    The out-of-state manufacturer, paint manufacturer, then 
spent $750,000 secretly on a dark money group on behalf of 
certain candidates, and then used the resulting political 
influence that he got in order to change State law. Is that 
basically the story you are telling?
    Mr. Earle. Yes. But it is worse than that, Congressman. 
What happened was the checks were delivered, and within days 
the activity occurred with regard to the legislation.
    Mr. Raskin. Okay.
    Mr. Earle. These children, by the way, had some of the most 
severe lead poisoning in the entire country.
    Mr. Raskin. Okay. Well, where does it stand now?
    Mr. Earle. Those lawsuits are pending because, happily, we 
were able to go back into court, and finally the Seventh 
Circuit in the Gibson case, Gibson v. American Cyanamid, ruled 
that it is unconstitutional to retroactively deprive a litigant 
of a vested right.
    Mr. Raskin. It is a due process violation. They nullified 
the property rights.
    Mr. Earle. Exactly. Substantive due process violation.
    Mr. Raskin. Okay. How would H.R. 1 help prevent situations 
like that from evolving?
    Mr. Earle. Because we would know what was going on.
    Mr. Raskin. So all you are asking for is disclosure? You 
are not even saying the Texas billionaire doesn't have the 
right to pour $750,000 into this election or that election. You 
are just saying the public has got a right to know?
    Mr. Earle. The public has a right to know.
    Mr. Raskin. And on your side, of course, you have the 
language, Justice Kennedy's language in Citizens United and 
Justice Scalia's language in the Doe v. Kelly case, I think it 
was, in 2010, where he said that there is no right to engage in 
secret speech, politically, if it is leading up to that the 
enactment of law, if it is in the legal process, right?
    Mr. Earle. Absolutely.
    Mr. Raskin. Okay. So let me then come to you, Mr. Keating. 
Is it your position that I have got a First Amendment right to 
spend whatever I want in politics secretly and that the 
government can never compel me to disclose my expenditure of 
money?
    Mr. Keating. Well, it depends what you mean by 
``politics.'' I think it is clear that if you give money to an 
organization that is endorsing and running ads, urging people 
to vote for or against a candidate, then the answer is no.
    Mr. Raskin. So you agree, that can be disclosed, that that 
can be compulsorily disclosed under the----
    Mr. Keating. It is today, and I think the court is right 
saying that that is.
    But I think there are other. The court drew a line, 
basically, and the line is advocacy for or against candidates 
for Congress or other elected offices.
    Mr. Raskin. Well, that certainly wasn't Justice Scalia's 
line in the Doe v. Kelly case, right?
    Mr. Keating. Well, Mr. Raskin, I think you would agree that 
there are many situations where we want people to have privacy 
to associate with an organization. We don't have to think very 
far back. The gay rights movement. Still today the gay rights 
movement would not want its donors public in some States. I 
know this for a fact. There are some Western States where these 
kinds of bills have come up and the gay rights community we 
have spoken to, they do not want these types of bills forcing 
massive disclosure.
    Mr. Raskin. Okay. Because corporations, at least as of now, 
don't have a sexual orientation, would you agree that 
corporations could always be required to disclose what their 
expenditures are?
    Mr. Keating. I don't know where the--I am not going to try 
to opine what the court would decide on this. But I think we 
have to keep in mind that most advocacy groups in this country 
are incorporated. They are nonprofit corporations.
    Mr. Raskin. Well, if we look at the Citizens United 
problem, we are talking about for-profit business corporations. 
So, I mean, I think that is the heart of the problem that Mr. 
Earle has identified, that certainly there are people who put 
their money into politics because this is part of the way that 
we do politics in America, to advance gay rights or to thwart 
gay rights or what have you.
    But when the Supreme Court in 2010 opened the floodgates on 
corporate treasury money going into politics, it created a 
problem of a completely different dimension and scale. And even 
built into the decision was the suggestion that all of this 
money would be disclosed. But you seem to be saying it 
shouldn't be disclosed. And I would think that that would be 
the basic foundation of the discussion, that it should be 
disclosed.
    Mr. Keating. Well, it is disclosed. When corporations give 
to super-PACs all that money is disclosed. But I would also 
point out that very few publicly traded corporations have given 
any money at all. It is almost small, privately held 
corporations----
    Mr. Raskin. Given any money where?
    Mr. Keating. To super-PACs.
    Mr. Raskin. Well, a lot of it goes to associations and 
trade groups, and there are other methods of getting the money 
in. I presume that is what a lot of H.R. 1 is about, 
reconstructing the money trail.
    Mr. Keating. Well, I would just encourage you that if you 
want to reach certain things, write a bill that is tailored and 
not massive so that it requires people's privacy no matter what 
kind of group they are joining.
    Mr. Raskin. Okay.
    Mr. Keating. Be more tailored.
    Mr. Raskin. Thank you, Madam Chairperson.
    The Chairperson. Thank you.
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    I appreciate this panel. And, again, as I stated in our 
first panel, I think it is very important that we have this 
discussion here.
    Let me start off by saying, Mr. Rangel-Lopez, very inspired 
by your story. What you exhibited is what this Nation is about: 
the freedom for you to take your grievances and seek action. I 
applaud you in what you did. That is awesome. I am really 
inspired by your story. And I am very sorry what happened to 
you.
    The whole time you were talking about Dodge City, I keep 
thinking of Marshal Dillon. That is part of America's icon and 
Americans' history.
    But I did have just a couple questions about this, because 
I wasn't clear in your story. So you were denied the right to 
vote because of moving that polling precinct, is that what I 
understand, you were not able to vote in the last--the 2018 
election?
    Mr. Rangel-Lopez. No, I was able to vote.
    Mr. Loudermilk. Oh, you were able to vote. So you were able 
to get to the polling place?
    Mr. Rangel-Lopez. Yes.
    Mr. Loudermilk. Okay.
    Mr. Rangel-Lopez. What I was trying to get at is just the 
story in general of the experiences of everybody in my town.
    The Chairperson. Could you turn on your microphone? We are 
having trouble hearing.
    Mr. Rangel-Lopez. I think I just need to move it closer.
    The Chairperson. Much better.
    Mr. Rangel-Lopez. Okay, yeah.
    Yeah, so I was just referring to the experiences of 
everybody else in Dodge City.
    Mr. Loudermilk. Oh, okay.
    Mr. Rangel-Lopez. I luckily have a job that allowed me to 
take some time off on election day to get to the polling place 
and help after I had voted, help with the election after I 
voted.
    Mr. Loudermilk. Okay. Good. I am glad to hear that, because 
I wasn't certain from your testimony there.
    And you had mentioned that the new polling place was 
outside of public transportation. Did the city do anything to 
help people get to the polling place?
    Mr. Rangel-Lopez. Yeah, they did that after the fact, after 
we had brought some national attention to this issue. Because 
at the time when this was announced, there were no plans for 
public transportation to be provided to take people to and from 
the polling place.
    And with the current public transportation that is in 
place, the nearest bus stop, like I said, was a mile away, and 
it would take a combined--it would take, one way, 90 minutes to 
get there, and then you had to walk. That includes the walk to 
the polling place. And that would be to and from there, as well 
as a 45-minute wait, more or less.
    Mr. Loudermilk. Okay. And I appreciate what you did. I just 
wanted to make sure I was clear before we went on, especially 
with the transportation, because I live in a city, and many of 
the cities that are in my district don't have any type of 
public transportation. So I am glad to know that Dodge City 
actually stepped up.
    We will move on to some of the others on the panel. One of 
the things that struck me in the last panel that I kind of hear 
here is I think the last panel used the term ``corrupt 
Washington, D.C., money,'' talking about the big dollars going 
in. I kind of think that is a theme, and I am gravely concerned 
about that.
    And, Mr. Earle, I understand where you are going. I 
appreciate Mr. Raskin's question, because the first thing that 
popped into my mind is the ex post facto provisions dealing 
with civil. And so the courts worked this thing out.
    And I understand your concern. And I think you kind of 
answered some of the concern because what we heard in the first 
panel was ``corrupt Washington, D.C., money.'' And I wanted to 
know, do you consider it just the big corporation money or any 
big dollars that go into these elections?
    And let me say something about Georgia. Georgia has been 
mentioned twice now in both of our panels. I served in the 
Georgia legislature. I know the secretary of state who is now 
governor, and he was highly committed to voter integrity as 
well as access for voters. In fact, this election more people 
voted in Georgia than ever in the history of Georgia.
    And so even though we had tons of billionaires' and 
millionaires' money coming into Georgia, which was basically 
coming out of wealthy New Yorkers, wouldn't it make more sense, 
if we want to eliminate that, just to put a $100 cap on 
elections? For any donation a $100 cap, whether it is to a 
candidate, whether it is to a party, whether it is to a PAC, 
$100, that is it?
    Mr. Earle. Election caps, I mean, contribution caps is an 
issue that I did not prepare to discuss here today with you. I 
came here to talk about transparency, the ability of people to 
know what is going on.
    Mr. Loudermilk. Well, there would be transparency, you have 
to report a $100 cap, and then it is across the board. In fact, 
if we want to go further, let's just make it you can only 
accept a donation from your State or your district. Wouldn't 
that resolve the problem? The problem that you had was $750,000 
going to legislators. Let's just do a $100 cap for everybody.
    Mr. Earle. A cap on campaign contributions may solve some 
problems. I don't think it would solve the problem we had in 
Wisconsin where you had an interested party in litigation 
facing law that they didn't like and went out and bought a 
change in that law to their benefit and tried to retroactively 
disenfranchise the litigants.
    These cases were filed in 2006. In some of these cases, we 
had completed discovery. There had been hundreds of depositions 
done, transcripts had been acquired. And then say to this 
child: You cannot have your day in court anymore. We are 
kicking you out of the courthouse.
    That goes against everything that America is about. It is 
as if we all of a sudden in Wisconsin were in North Korea, 
facing the tyranny of a despot.
    Congressman, I am sorry for my passion and anger about 
this, but this has to change.
    Mr. Loudermilk. No. I appreciate your passion.
    And I see that the time has expired, but I would like to 
continue on in our second round of questioning if we have any, 
Madam Chairperson. Thank you.
    The Chairperson. We can have a second round if members 
want.
    Mrs. Davis of California.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    And thank you to all of you for your patience as well in 
waiting for the hearing to begin.
    Mr. Jessup, I wanted to ask you a little bit about your 
experience. You mentioned in your testimony that one way that 
Michigan recently expanded democracy was by allowing no-excuse 
absentee voting when you passed Measure 3. As the author of 
national no-excuse absentee voting legislation, I noticed that 
Michigan had some pretty arbitrary excuses that allowed only 
some people to vote by mail.
    Michigan had six statutory reasons. You had to be over 60, 
unable to vote without assistance, be in jail awaiting some 
action, busy with a religious obligation, unable to vote 
without assistance, or an elections inspector outside your 
precinct, or expecting to be out of town on election day. 
Sometimes we don't always know when we are going to be out of 
town, right, to get that excuse in time.
    That was it. If you were going to work, if you were going 
to school, if you were taking care of children, being sick, not 
necessarily incapacitated, many things that happen every day to 
ordinary folks, all of us, below age 60, could keep a 
registered voter from voting because we know that some people 
just can't vote on election day. And they are really restricted 
from voting by mail obviously in these States, 21 States.
    More people are more likely to vote if they are able to do 
that in advance and from their kitchen table, essentially, 
getting that in to the registrar.
    So could you just let us know a little bit about, prior to 
the passage of Measure 3, do you feel that requiring arbitrary 
excuses was a form of voter suppression?
    Mr. Jessup. Absolutely. When we think about the process to 
gain an absentee ballot in Michigan, right, one of those seven 
options, right, normally for a young person like me, I don't 
apply to any of those.
    And I am thinking about in our effort and the fight to 
expand voting rights and accessibility for all in the State, 
there was a young lady named Jasmine Hall. She was a janitor 
who worked at Detroit Metropolitan Wayne County Airport.
    Of course as a janitor you are not in the higher rungs of 
employment. And Jasmine made it very clear to us that her 
supervisor would not be understanding if she showed up to work 
late at 8 a.m., if she decides to go and cast her ballot early. 
And, unfortunately, she had a 12-hour shift, so she would end 
her shift at 8 o'clock. So how could she cast her ballot on 
election day?
    Mrs. Davis of California. That is quite typical, and I 
appreciate your response. Do you think that that--talking about 
Jasmine, or anyone in that situation--that that put them at a 
disadvantage in national elections? Thirty-two other States 
could vote by mail for any reason.
    Mr. Jessup. That is right.
    Mrs. Davis of California. Yeah, okay. Do you feel that 
requiring excuses did anything at all to ensure election 
integrity?
    Mr. Jessup. Absolutely. When you think about--they don't--
--
    Mrs. Davis of California. Requiring excuses.
    Mr. Jessup. They don't do anything to add any integrity 
into the process because you are blocking people from the 
process, from engaging in the first place. That is against the 
whole part of democracy. We should encourage people to 
participate by casting their ballot, not just registering.
    Mrs. Davis of California. Any justification for that, for 
the random excuses?
    Mr. Jessup. I haven't seen one yet. Matter of fact, I think 
in almost 65 years of Michigan elections we have had 0.01 
percent of voter fraud in our great State. We run elections 
pretty well in the State.
    Mrs. Davis of California. Yeah, thank you, I appreciate 
that. I know because I have spoken to a number of registrars 
from California, and some of their experiences prior to having 
no-excuse voting. And usually some of these things are thrown 
in a drawer, nobody looks at them. And, unfortunately, people 
feel intimidated by that process and that they are out of it.
    Mr. Keating, could you respond, because I know you spoke 
quite eloquently about privacy issues, about wanting to make it 
simpler for people to speak. There is nothing more important 
than having their voice in an election. What is your sense?
    Actually, you are from Virginia. Am I correct? You live in 
Virginia.
    Mr. Keating. Well, our office is in Virginia. I live in 
Maryland. I am actually a constituent of Mr. Raskin.
    Mrs. Davis of California. Okay. All right.
    Mr. Raskin. I would have been a lot nicer had I known that.
    Mrs. Davis of California. Okay. So you are privileged to 
be--you have that ability to do that.
    But what is your general thought about that? Because many 
of the things that you said lead me to believe that you would 
be concerned that asking for those excuses really jeopardizes 
one's privacy. In some States, if you are pregnant, you have to 
tell them.
    Mr. Keating. I think those are great points.
    Mrs. Davis of California. Okay. Thank you very much. I 
appreciate it.
    And thank you to all of you again.
    Thank you. I yield back.
    The Chairperson. I note that Mr. Butterfield, who was here 
this morning, would have been here, but he is attending the 
funeral of our colleague, Walter Jones, which is happening 
right now in North Carolina. It is no disrespect to you but 
respect to our deceased colleague.
    I would now like to recognize the gentlelady from Ohio.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    Thank you all so much for being here.
    Mr. Keating, I tend to agree with you about the FEC, 
because we really would hate for it to mimic the partisanship 
of the U.S. Supreme Court. So you are absolutely right.
    As well as I agree with you that we should just have a 
single line disclaimer. I am good with that really, as long as 
that information is readily available in some other place. I 
know it costs a lot of money to do TV, so I agree with you on 
that point. But the information still must be available.
    I am always struck by the way we try to define what a 
democracy is in other countries, like we are doing in 
Venezuela, but we cannot determine what a democracy is in this 
country. It is just shameful to me that we turn around and we 
talk about all these little loopholes.
    What we ought to be doing is trying to figure out how we 
engage every single person in this country to exercise their 
constitutional right to speak, to not disenfranchise people 
because you don't like how they are going to vote or what they 
look like. Everyone is guaranteed an unfettered right to vote, 
and that is what we hope is going to happen out of this.
    Mr. Rangel-Lopez, do you think it is reasonable for someone 
to have to travel 90 minutes to vote?
    Mr. Rangel-Lopez. Short answer: Absolutely not. It is an 
awful situation for anyone to be in. Voting should be easy, it 
should be accessible, and it should take no more than, maybe 
max, 30 minutes for you to vote.
    Ms. Fudge. Thank you.
    And my colleague asked about providing transportation. They 
did when they were shamed into doing it, is that not right?
    Mr. Rangel-Lopez. That is correct. And it was the response 
of the city, not the county.
    Ms. Fudge. Thank you.
    I happen to have seen you on television a few times, and I 
was so impressed. But I also know that that is why your people 
responded by trying not to look as bad and awful as they were 
by providing some transportation.
    Mr. Jessup--who, I have to say, I have known for probably 
about 10 years, a young man that I knew was going someplace, 
and now I look up and he is sitting in front of us.
    Mr. Jessup, you started to tell us about things you thought 
might be helpful in changing the way we do things. You want to 
continue? I think you gave us one. You had three. Would you 
give us the other two?
    Mr. Jessup. Same-day registration, it is clear that would 
actually help a lot of young people register and pass their 
ballots on election day.
    When you think about the State of Michigan, where we have 
seen many of our college campuses' voting precincts either 
dissolve or just be gerrymandered out of the district, you have 
seen that almost 200,000 young people a year don't cast a 
ballot because they don't have a place to vote.
    And then, of course, when we do our voter registration 
drives, right, September comes, new students come, their 
address changes. Because they at first had their home address 
due to our motor voter law, now I am at University of Michigan 
or Eastern Michigan University, which is what happened to me in 
2000.
    I transferred to Eastern Michigan from Ohio, Defiance, 
Ohio, and I am scheduled to vote in the 2000 election for 
President. I arrived at my polling place at 6:30 that afternoon 
after class, and I was notified that my voting precinct was 
back in Redford. I had to drive 45 minutes back home to cast my 
ballot. I got my first speeding ticket then, and I cast my 
ballot at 7:52.
    So just imagine how many young people in Michigan go 
through that every year. We had at least, I think, 130 
instances at Michigan State within the first hour of this 
year's election.
    So when you think about what happens to young people, that 
is the biggest egregious piece when you talk about same-day 
registration and how we can alleviate that hurdle for young 
folks and get them to the ballot.
    Ms. Fudge. Thank you very much.
    And, Mr. Earle, I don't know that there is much we can do 
about people we elect who are not honest or who are 
unscrupulous. I don't know that it is money or not money. But I 
know what might help, and that is being sure that every single 
person who has a right to vote can, because then they probably 
will not vote for crooks.
    You know, most American people understand who they should 
vote for. What we don't get is enough of them voting because we 
make it too difficult.
    Madam Chairperson, I yield back.
    The Chairperson. The gentlelady yields back.
    I would recognize the gentleman from California, Mr. 
Aguilar.
    Mr. Aguilar. Thank you, Madam Chairperson.
    Mr. Rangel-Lopez, I am a fan of yours as well and have seen 
you on TV.
    Through your experience in Dodge City this past election, 
do you believe H.R. 1 could affect you? How do you think it 
could affect you, your family, your friends, your community 
members in future elections?
    Mr. Rangel-Lopez. Absolutely. As stated by Ms. Fudge, it is 
incredibly important to make it easier for everybody to vote, 
and that includes the things that are included in H.R. 1, which 
includes making each polling site accessible by public transit, 
as well as same-day registration. Just overall, making it an 
easier election process so everybody benefits, not only 
minority and low-income voters, but also young people and just 
everybody in general. And that is what I believe that we should 
really focus on to expand our democracy to everybody that we 
can.
    Mr. Aguilar. I am sure you have friends and family, all of 
you have friends and family, just like I do, who don't--oh, I 
forgot to vote, I didn't vote this time. What are some of the 
barriers? What are some of the additional barriers that--and I 
will stick with you, Mr. Rangel-Lopez and Mr. Jessup--what are 
some of the barriers that our community members face?
    Mr. Rangel-Lopez. So Dodge City is a beef-packing 
community. Most of the people don't get out of work from the 
first shift until around, I would say, 3 to 4 p.m. And right 
after work they go pick up their kids from school. They have 
dinner. They get some time to rest. And it is not until 5 or 6 
o'clock that they get to vote, which is the case for my dad 
most times.
    And the barrier there is there are a lot of factors that we 
can't control, such as what time you get out of work. Things 
like making--I know this isn't something that is mentioned in 
H.R. 1, or I don't believe it is mentioned there--making 
election day a holiday would make it easier for people to vote, 
allow more people to vote on election day.
    Mr. Aguilar. If your dad was hustling on a day working, 
what is the earliest time of day he could vote?
    Mr. Rangel-Lopez. Well, he goes in before 6 a.m., most 
people do, and probably the earliest possibly, with everything 
that he has to do, would be 4:15, a couple speeding tickets 
probably.
    Mr. Aguilar. Yeah. And probably kids left at school a 
little longer. But, look, I mean, and that is what we are 
talking about.
    Mr. Jessup, I would like your thoughts. I mean, those types 
of issues that affect working communities, those continued 
barriers that we face.
    Mr. Jessup. I am from Michigan, the home of the third 
shift, right, and I think it is clear that when we had clerks 
like in Flint and Detroit and Lansing that worked with our 
secretary of state and other election officials to say, ``Okay, 
yeah, we will open up for no-excuse absentee or early voting on 
the weekends,'' I mean, that goes gangbusters in the city of 
Detroit.
    I mean, you can easily have--you will see lines for 2 and 3 
hours for people just waiting to vote. It is easier to prepare 
hospitality lines for early voting and weekend voting as 
opposed to on election day, because now you are looking at 7 
million people possibly turning out to vote.
    So I think H.R. 1 gives just the framework for State 
elections officials and clerks to work under. That was what we 
were working to do in Michigan, was not to prescribe how our 
election officials should hold elections, but to give them the 
freedom to work in a broader sense.
    Our State Constitution prior to November, 2018 said you 
have the right to vote. That is it. So now, with our seven new 
planks, our Secretary of State Ms. Jocelyn Benson, and other 
clerks across the State are now looking at ways to legally add 
on weekend voting, early voting, and how they can work together 
in a bipartisan fashion to execute no-excuse absentee voting.
    If it is a mail program that is fine, but I think our 
framework in the State has provided a nonpartisan opportunity 
for us to work together and have a better democracy.
    Mr. Aguilar. I agree. And this goes back to what Chairwoman 
Fudge said. I mean, if we are serious about giving people an 
opportunity to vote, that everybody has an opportunity to vote, 
we have got to be more flexible, whether it is mail-in voting, 
early voting sites, all of those pieces, weekend voting, same-
day registration.
    Those are pieces that help disadvantaged communities, 
working communities, as Ms. Fudge's colleague and mine Tim Ryan 
says, people who take a shower after work and not before work, 
to those individuals who are working incredibly hard, we have 
got to give people an opportunity to get to the polls and to 
exercise their right to vote.
    Thank you, Chairperson.
    The Chairperson. Thank you, Mr. Aguilar.
    This has been very helpful to me.
    And, Mr. Keating, you have sort of the approach, if I am 
understanding you right, the concern you have about the burden 
of disclosure and the online environment. But I was also 
thinking about just the sheer amount of time it would take for 
disclosure on a stand-by-your-ad type of situation in a digital 
environment.
    I mean, 10 second ads, it is pretty routine, the disclosure 
would take 15 seconds or more, so the disclosure would be 
longer than the ad.
    Does that also concern you?
    Mr. Keating. Absolutely. In my statement I only had 5 
minutes, but that is definitely a huge problem. And lot of the 
ads are now appearing on smart phones.
    Chairperson Lofgren. Correct.
    Mr. Keating. And there is that little ad at the bottom of 
an app. I don't know how you put those disclaimers on. So if 
you have something that says ``paid for,'' at least people know 
who paid for it, and then when they click they can see the rest 
of the disclaimer.
    The Chairperson. Well, I think that is a point well taken, 
and I am very much in favor of the disclosure, but it has got 
to work technologically. And it is good that you raised that 
issue, and it is something that we need to think about how we 
might improve as we move forward with this bill.
    Mr. Keating. Well, let me just say, we have a lot of 
experts who are happy to give technical expertise to the 
Committee if you would like.
    The Chairperson. I appreciate that very much.
    Mr. Rangel-Lopez, it was really great to see you here and 
to read your testimony and to hear your story. You were able to 
get to the polling place even though it wasn't easy. Do you 
know people who actually couldn't get there because of the move 
of the polling place?
    Mr. Rangel-Lopez. Yes. Like we mentioned prior, it is a 
working class community, and the circumstances that I described 
earlier prevent a lot of people from voting because it is not a 
neighborhood polling location. You can't vote in a quick 10 
minutes.
    The Chairperson. Maybe you don't know this, but did any of 
those Americans who were prevented from voting lose confidence 
in the democracy because of that situation?
    Mr. Rangel-Lopez. Oh, I am sure, I am sure it does that to 
everybody that doesn't get a chance to vote and wants to vote. 
Because I like to say it is one of the most fundamental checks 
in our system of checks and balances and on our government to 
vote, and it is a disappointment when people don't get that 
opportunity to express their feelings through their vote.
    The Chairperson. Mr. Jessup, your testimony was very 
important. Is it your sense that had the democracy worked and 
instead of appointed people making decisions you had people 
accountable to their own voters, that you might have had a 
different outcome in terms of the poisoning through lead in 
Flint?
    Mr. Jessup. Yes, ma'am. Absolutely. Absolutely.
    Every decision beginning from 2012 regarding the water 
pipelines breaking from the Detroit Water and Sewerage 
Department were all done by unappointed, unelected emergency 
managers. The mayor at that point in time had lost all his 
power. There was a brief period where we had actually won the 
city of Flint its rights back, but that soon eroded away in 
another court challenge.
    So this was around 18 months of fighting, and our ballot 
initiative actually put that Public Act 4 on hold. So the State 
honestly had not--they weren't able to operate under that until 
we had voted.
    The Chairperson. Mr. Earle, you mentioned the $750,000 
contribution and the emails that made that known. Who was the 
contribution made out to?
    Mr. Earle. The Wisconsin Club for Growth, which is a dark 
money group that operated in direct coordination with the Scott 
Walker electoral campaign during his recall election.
    So this was about avoiding the caps that existed in 
Wisconsin. As Mr. Loudermilk mentioned earlier, this was a 
scheme, a scheme to avoid those caps.
    In fact, the Walker staffers were telling the people like 
Mr. Simmons, Harold Simmons, the owner who is now deceased, the 
owner of NL Industries, that if they gave money to Wisconsin 
Club for Growth instead of the Scott Walker campaign, that that 
money would not be disclosed and that there would be no limits. 
And then the irony of this is that the same fellows running 
Scott Walker's campaign were in charge of the Wisconsin Club 
for Growth.
    So this was just a roundabout scheme to basically defraud 
the public and disable our democracy. Because Congresswoman 
Fudge is right, people have to be able to vote, and if people 
can vote things can happen, but people have to be able to vote 
with the pertinent information. They have to know who is paying 
who. You know the old song about who pays the Pied Piper, they 
have to know that.
    The Chairperson. Thank you very much.
    My time has expired, and if the witnesses can stay a little 
bit longer we would like to have a second round of questions. 
Does that work for all of you? They are all nodding their head, 
so I will turn to Mr. Davis.
    Mr. Davis of Illinois. Thank you, Chairperson Lofgren.
    Mr. Earle I actually respect your passion. But before I get 
to your question, I also want to reiterate our colleague Mr. 
Walker from North Carolina is with Mr. Butterfield at the 
services for our good friend who is recently deceased, Mr. 
Jones. So otherwise he would like to get into these 
questionings, too.
    Mr. Earle, you are a supporter of H.R. 1, right.
    Mr. Earle. Yes, I am.
    Mr. Davis of Illinois. Mr. Jessup, you are a supporter of 
H.R. 1, right?
    Mr. Jessup. Yes.
    Mr. Davis of Illinois. Okay. Mr. Jessup, is it true that 
State and local officials are currently required by law to 
remove inactive voters from their rolls?
    Mr. Jessup. Are you asking me in a sense of Federal law or 
in State constitutional, in Michigan's law?
    Mr. Davis of Illinois. Michigan law, any law.
    Mr. Jessup. I would prefer not to answer that right now. I 
wasn't prepared to get into that level of questioning.
    Mr. Davis of Illinois. Okay.
    Mr. Earle.
    Mr. Earle. The question, Mr. Davis, is whether laws require 
the purging of voters from the rolls in some States? Yes, they 
do, unfortunately, and that is another tragic aspect of our 
flailing democracy that needs to be addressed.
    Mr. Davis of Illinois. All right.
    Mr. Jessup, do you want to lay out the standard in Ohio v. 
Husted and the procedures used to remove inactive voters from 
the rolls in the State of Ohio? Do you know?
    Mr. Jessup. Well, sir, I am not a resident of the State of 
Ohio, so I would not want to speak to that part of it.
    Mr. Davis of Illinois. I mean, you are part of an 
organization that operates in Michigan. We are talking about 
H.R. 1, which would then apply nationwide.
    I wanted to ask you, Mr. Earle, do you have any thoughts on 
the standard that was laid out in Ohio v. Husted and the 
procedures used to remove inactive voters from the rolls?
    Mr. Earle. I followed that news very carefully. I don't 
have the legal standard in my head as I came here prepared to 
talk about dark money.
    Mr. Davis of Illinois. I mean, it was a Supreme Court 
decision that has led to a 571-page bill that you have all said 
you support. That is why I asked about the decision.
    So we heard in the first panel about the so-called problem 
with removing voters from registration rolls, and again, you 
two are here in support of H.R. 1, and I just wanted to get an 
understanding, because I thought it was my understanding that 
the Supreme Court was more than fair, and what was happening in 
Ohio was upheld by the U.S. Supreme Court.
    So that is okay. I will go to something that is a little 
less Ohio based and Supreme Court based.
    Mr. Jessup, I appreciate again what you do. My goal is to 
get more people to the polls, also. As matter of fact, you 
mentioned Michigan State University. I represent four public 
institutions in central Illinois, four private institutions, 
eight community college districts. No gerrymandering occurred 
in that district, I am sure in Illinois before it happened.
    But we also had an issue at the University of Illinois 
where so many students didn't take advantage of early 
registration programs that you even put out in Michigan. 
Therefore that led to the longer lines because we do have same-
day registration.
    So that is an issue I think as you move forward as an 
organization, is how do you avoid those long lines, how do you 
encourage more early registration, because we don't want long 
lines on Election Day either.
    But according to your bio, you are the executive director 
of Michigan Forward, and according to Michigan State filings 
you are also a registered agent of Michigan Forward Urban 
Affairs, the urban affairs group. It is an LLC. And Michigan 
Forward is a registered nonprofit, right?
    Let's say your organizations wanted to weigh in on a 
Federal campaign. Can you walk us through how H.R. 1 would 
affect either of your organizations?
    Mr. Jessup. Well, as we know, like, the disclosure pieces 
are the parts that would be an issue for us. I mean, as a 
nonprofit it is very hard to raise millions of dollars, to 
raise any ad money.
    But the great part about democracy is that before you get 
to the electoral part you have to educate the voter, and we 
have done a very good job in working in a nonelectoral fashion 
educating voters on the issues that they work on 365 days a 
year. That is the reason why we had an increase of over 600,000 
folks turning out to vote in 2018, because we did the 
groundwork 2 years prior. What are your issues? It is not about 
the candidate, it is about the issue.
    Mr. Davis of Illinois. Okay. I understand that. But do you 
understand that your organizations would have burdens in these 
reporting requirements?
    Mr. Jessup. And I am telling you that we have had those 
burdens before this legislation came forward. We have worked 
around them, and we have been successful without it.
    Mr. Davis of Illinois. My time is almost up, and I have got 
another question for you. I apologize, sir.
    In your written testimony you also say H.R. 1, quote, 
``clearly answers the call for a new Voting Rights Act using 
the template from States like Michigan, Florida, and 
Missouri,'' end quote. Can you tell us what self-imposed 
restrictions these States have adopted?
    Mr. Jessup. Self-imposed restrictions? One great self-
imposed restriction that we have in Michigan was the option to 
opt out of automatic registration. As I have said earlier in my 
testimony, we talk about Richard Austin's pioneering effort of 
his motor voter law. When you came to Michigan, if you were in 
Michigan, you are 16 years of age, you are ready to get your 
driver's license, you were encouraged to come and register to 
vote.
    So now we have an appeal that says, hey, if you don't want 
to do it automatically, if you want to opt out and you have to 
say to the State, you are getting your driver's license, you 
don't have to register. That is how we keep our voter rolls 
clean.
    So we were being very conscious about our system of how we 
can make it better without adding any additional impediments. 
So our motor voter law actually helps us to alleviate the 
problems we have on Election Day, and that with same-day 
registration helps young people really vote in a fluid fashion.
    Mr. Davis of Illinois. Is that a part of the Voting Rights 
Act?
    Mr. Jessup. I am sorry?
    Mr. Davis of Illinois. Was that a part of the Voting Rights 
Act?
    Mr. Jessup. Having the option to opt out?
    Mr. Davis of Illinois. What you are explaining.
    Mr. Jessup. I think there should be a new template.
    Mr. Davis of Illinois. It should be part of the Voting 
Rights Act?
    Mr. Jessup. Yes, you should have the option to opt out.
    Mr. Davis of Illinois. Okay. Thank you, sir.
    Thank you all.
    The Chairperson. The gentleman's time has expired.
    I turn to the gentleman from Maryland.
    Mr. Raskin. Thank you very much.
    So I am impressed by the provisions in H.R. 1 that deal 
with voter registration modernization, automatic voter 
registration, same-day registration, and so on. But I remain 
uncertain about all of the provisions dealing with money just 
because I understand that Citizens United has created some very 
difficult, seemingly intractable problems in the electoral 
process.
    Now, Mr. Earle says what we need is disclosure. Presumably 
disclosure in your case would have allowed the public to 
understand, assuming that the money can't be hidden and 
concealed through a series of pass-through entities.
    But I am looking for something stronger to deal with the 
problem of Citizens United. I know that there are proposed 
constitutional amendments to reverse Citizens United that are 
out there.
    But I wonder if both Mr. Earle and Mr. Keating would 
comment on the idea of saying that corporations can't put any 
money into politics without first having a prior majority vote 
of the shareholders. And the theory being, according to 
Citizens United itself, Justice Kennedy saying that the 
corporations or the CEOs are doing nothing more than 
vicariously exercising the free speech rights of the 
shareholders. But if the shareholders don't know anything about 
it, if they haven't consented to it, then essentially you are 
just taking their money and they are being turned into suckers.
    So I am wondering if both of you would just comment on 
that, whether you would agree with the system, which is what 
operates in the United Kingdom, I found out, which is that 
corporations can give, but only after there has been a vote of 
the people who own the wealth of the corporation, the 
shareholders.
    Mr. Keating.
    Mr. Keating. Well, first, we have to keep in mind that many 
corporations are nonprofit corporations, and their businesses 
is to advocate for social----
    Mr. Raskin. I am just talking about for-profit business 
corporations.
    Mr. Keating. Well, I want to make sure that is clear.
    Mr. Raskin. Yes, for-profit business.
    Mr. Keating. Because we are very much opposed to the 
government regulating how nonprofit groups run----
    Mr. Raskin. And that is protected by the Supreme Court in 
the Massachusetts Citizens for Life case.
    Mr. Keating. Right. Although I would point out the End 
Citizens United campaign would overturn that decision, as well, 
if they had their druthers.
    In terms of corporations, I would say it very much depends 
on how it is written and the details of how it is written.
    Mr. Raskin. But in principle do you like the idea?
    Mr. Keating. In principle I think it might be all right, 
but you would certainly have to look at the details. Because I 
have seen some of the States--there was a bill in Connecticut 
that went to the governor, the ACLU opposed it, and the 
requirements were so burdensome it basically made it very 
difficult for corporations to give contributions for 
independent expenditures, for example.
    Mr. Raskin. Okay.
    Mr. Keating. There are rights to do it. You can't make them 
too burdensome.
    Mr. Raskin. Okay. Mr. Earle, what do you think about saying 
if corporations are going to be involved that shareholders 
should be the ones who are driving?
    Mr. Earle. Absolutely, Congressman. That is absolutely 
essential. Corporations, many people own--millions of people 
own shares in some of these large corporations that invest tons 
and tons of money. And to say that the CEO of one of those 
major corporations vicariously speaks for all of the 
shareholders is an absurd proposition.
    Mr. Raskin. Without consulting them or even letting them 
know.
    I don't know whether, Mr. Jessup or Mr. Rangel-Lopez, you 
have any comments on this. No.
    Mr. Keating. Let me also add that, again, I think if 
anything like this is to help, not harm free speech overly, you 
want to make it very, very narrowly tailored. So this just 
covering electoral politics----
    Mr. Raskin. Well, whose free speech rights do you think are 
at stake when Exxon Mobil spends money? Is it the CEO or is it 
the shareholders whose free speech interests count?
    Mr. Keating. Well, hold on. I think it is a good thing that 
we have trade associations. It is a good thing. And if we make 
it more difficult for corporations to join a trade association 
that is a bad thing. And so if we make it too cumbersome for 
these corporations to associate----
    Mr. Raskin. But your group is interested in free speech, 
right? I am not asking you an unfair question here. Whose free 
speech interests are at stake when the McDonald's corporation 
decides to get involved in politics? Is it the CEO, the person 
who happens to occupy that position, or is it the shareholders 
of McDonald's?
    Mr. Keating. Look, I think Justice Kennedy was also 
referring to the fact that shareholders have the right to 
change the management of the corporation, to pass shareholder 
resolutions, and things of that nature.
    Mr. Raskin. So you would say the shareholders are the ones 
whose free speech----
    Mr. Keating. They have that right.
    Mr. Raskin. Well, only if they know about what is taking 
place.
    Mr. Keating. Again, they have that right already. They can 
pass a resolution.
    Mr. Raskin. Do you favor disclosure to the shareholders of 
all political contributions by the CEOs of the company?
    Mr. Keating. I think that should not be the government's 
call. I think that should be the shareholders call.
    The shareholders have the right to propose these 
resolutions and change the management, bylaws, and so on and so 
forth; and they can also sell their shares, as well. People 
don't have to join nonprofit corporations as members. If they 
don't like it they can join another group. If you are a 
shareholder you can sell your shares.
    Mr. Raskin. I am starting to get the feeling you think it 
is the CEOs whose free speech rights are really at stake.
    Mr. Keating. No. Look, it is a corporation, so it is 
everyone who is involved with that corporation, whether they 
are shareholders or not.
    Mr. Raskin. Are the workers?
    Mr. Keating. The shareholders are ultimately in charge.
    Mr. Raskin. Okay. Well we should pursue it some other time 
back in the Eighth Congressional District.
    Mr. Keating. Congressman, your place or mine?
    Mr. Earle. Can I add to my answer to your question, 
Congressman?
    Mr. Raskin. Briefly, sure.
    The Chairperson. The gentleman's time has expired.
    Mr. Earle. One of the salubrious things that happened as a 
result of The Guardian newspaper disclosing this trove of 
checks and emails in Wisconsin, we learned that the CEO of 
Devon Energy Corporation gave money from corporate accounts 
directly to the Wisconsin Club for Growth that were without any 
shareholder notification or participation in those decisions.
    And in the case of Harold Simmons and the NL Industries 
Corporation, Harold Simmons gave money from his personal 
account, and he gave money from the corporate account, as well.
    The Chairperson. Thank you.
    The gentleman from Georgia is recognized.
    Mr. Loudermilk. Thank you, Madam Chairperson.
    And sorry we ran out of time before, but I would like to go 
back to the discussion we were having, Mr. Earle, because from 
what I am understanding, the issue that you have brought 
forward, which I understand the concern that you have there, is 
that was a State legislature issue, right?
    Mr. Earle. Yes.
    Mr. Loudermilk. That was not a Federal election, it was 
totally a State election. Because Federal elections we already 
ban corporate contribution to candidates, we don't allow that 
to happen.
    Being a supporter of H.R. 1, in my understanding H.R. 1 
applies only to Federal elections, how would H.R. 1 have solved 
the situation with the Wisconsin Club for Growth and those 
aspects of what you are testifying?
    Mr. Earle. Congressman, I think the concern here, I mean, 
it is not just simply the disclosure component, first of all, 
okay? The disclosure component is one part of it, but it was 
accompanied by a coordinating, a coordination in order to avoid 
caps.
    Mr. Loudermilk. But that was at a State level. What I am 
trying to do is draw a correlation. You are bringing up a State 
issue. These are about Federal elections. How would H.R. 1, 
anything in this bill, actually resolve that problem you have 
there?
    Mr. Earle. If H.R. 1 required all--it outlawed across this 
country dark money, nondisclosed, that would solve a big piece 
of this problem.
    Mr. Loudermilk. Let's say we put a $100 cap on all 
contributions, even if it was to a PAC or super-PAC, and you 
disclose all that, that wouldn't take care of the problem?
    Mr. Earle. Congressman, in Wisconsin at the time that this 
was going on the State law of Wisconsin had caps. And the 
reason that they went to the dark money donors was so they 
could avoid the caps, so that that money could be given under 
the table, and then spent by the dark money group in 
coordination with the candidate. It is like a cancer on 
democracy.
    Mr. Loudermilk. And you are saying H.R. 1 would solve that 
problem?
    Mr. Earle. What?
    Mr. Loudermilk. You are saying H.R. 1 would solve that 
problem?
    Mr. Earle. I think H.R. 1 would move in the direction of 
solving that problem, yes.
    Mr. Loudermilk. By disclosing everyone who gives money 
anywhere?
    Mr. Earle. I think so. I think that is a big part of it, 
yes.
    Mr. Loudermilk. That is what I am getting back to. Wouldn't 
it be more effective if we just cap everybody at $100? You 
write a campaign contribution, whether it is to a PAC or 
whether it is to an individual or anywhere you go, would that 
not resolve that problem?
    Mr. Earle. So, Mr. Loudermilk, let me understand what you 
are saying here. What you are saying is that rather than 
require disclosure, you would rather limit campaign 
contributions across the country in State and Federal elections 
to $100 per donor?
    Mr. Loudermilk. No, I am just saying this is a proposal. If 
we want to clean it up wouldn't it be a more effective way just 
to do the $100 cap? Because I keep hearing testimony about big 
dollars and dark money and all this. If that is what we are 
seeking to do, that would level the playing field across the 
board.
    Mr. Raskin. Would the gentleman yield? Could you yield for 
1 sec?
    Mr. Loudermilk. Yes.
    Mr. Raskin. Okay. It is an understanding proposition. I 
think the Supreme Court has foreclosed it both as to 
contributions and expenditures. I think $100 limits have been 
struck down as a First Amendment violation. And on the 
expenditure side, of course, the Supreme Court said you can't 
limit----
    Mr. Loudermilk. We have limits on us right now of $2,700, 
correct?
    Mr. Raskin. Correct, from individuals.
    Mr. Keating. I can help with this a bit. Mr. Raskin is 
correct. The Supreme Court has said clearly that money cannot 
be limited for independent expenditures or a candidate putting 
money into his or her own campaign. And also in the State of 
Vermont, Vermont had contribution limits similar to this $100 
that you are speaking of, and the Court struck that down. It 
was bipartisan.
    Mr. Loudermilk. Is it because of the amount?
    Mr. Keating. Yes, it was too little.
    Mr. Loudermilk. What is the right amount, $500?
    Mr. Keating. Well, I don't think there should be any caps, 
and I think the voters are smart enough to decide which 
candidates to vote for based on who is contributing and leave 
it at that.
    Mr. Loudermilk. So anyhow, what I am getting is we are 
working around issues. And I am already seeing the light 
change, and I have a couple other questions real quickly.
    It was brought up, unfortunately we can't remove voters 
from rolls. Now, I am interested in not disenfranchising voters 
like Mr. Rangel-Lopez's father or a lady that I just 
participated in her citizenship ceremony this last week, 16 
years, worked hard to become American citizen, now she has the 
right to vote.
    I actually know people who lived in Georgia, moved to 
Florida, and they were registered to vote in three different 
States, and they could have cast a vote in three different 
States.
    It seems to me that the States are better and they are more 
likely to not disenfranchise voters when they have the ability 
to purge voter rolls from those who should not be voting.
    Mr. Jessup.
    Mr. Jessup. I hear you. In a data management aspect, yes, 
you need to keep your voter rolls clean. That is the truth.
    Now, how States go about identifying if a person is not in 
their State anymore, we should look at the models that we have 
like Michigan and Florida, for instance, a driver's license, 
like, exchanges in that data piece. I think that helps a lot as 
far as just identifying or flagging a voter as possibly 
inactive. There should be steps, and many of those steps have 
been identified in HAVA and also the National Voter 
Registration Act, about how you clearly can remove a person 
from the rolls.
    Michigan in 2008, with some partners, the ACLU, the United 
States Student Association, and others, actually filed a 
lawsuit against illegal voter purging in the State of Michigan 
because we found that over 5,000 Detroiters had been illegally 
purged and then issued provisional ballots in 2005 because of 
illegal voter purging. This was because of bounced mail and 
things like that.
    We came to find out that the State of Michigan was directly 
liable, and they had to pay restitution back to the United 
States Student Association and the Michigan ACLU.
    So once again, if this is about data management, which we 
don't do very well in democracy or as a government, I think we 
should look at that aspect, how we could do it better. But if 
we try to make voter rolls a political conversation, that is 
where we fall into the danger of illegally removing people from 
the vote, and then we create that barrier to access.
    The Chairperson. The gentleman's time has expired.
    The gentlelady from California is recognized.
    Mrs. Davis of California. Thank you, Madam Chairperson.
    And I think we need to go back a little bit and just think 
about in H.R. 1 we are concerned about people who are voting in 
our national elections, voting for President, the most personal 
vote that a person takes, and being certain that there is a 
level playing field so that one State over another State is not 
further jeopardizing people's right to vote.
    As we do that, I think, and you have all testified very 
eloquently from different perspectives about this, I think we 
have to be looking at intent. And so that is why I think when 
the courts have taken a look at this, our ability to be able to 
really understand and go deep on whether or not there is a 
legitimate reason for some of that purging.
    I wanted to really talk a little bit more just about this 
general idea of integrity and confidence in the elections. 
Because on the one hand I think we all recognize that States--
and counties, for that matter--have an awful lot to say about 
elections for any individual depending upon their residence. 
And that makes some sense because we certainly can't have the 
Federal Government monitoring every county throughout the 
country.
    But on the other hand, if we are to not allow people to 
have no-excuse voting and to generate long lines throughout the 
country in some States, there are people who leave, leave lines 
when they want to vote for President, because they have to go 
back to work, they have got to go do something else.
    And so some of these issues I think we really have to look 
hard at, what is the Federal role? And if it is leveling the 
playing field and creating a kind of disclosure across the 
board so people understand what they are voting for, then it 
seems to me that that is a place for us to step in and to look 
at that.
    And so I am interested in where you think it is not just 
practical, but it is in the cause of democracy that we have an 
opportunity to do that.
    I am reminded, just very quickly, in California I remember 
one year that we had an environmental bill, a beautiful tape 
program showing, I don't remember exactly, but the environment 
being helped. And, in fact, it was a bill by the oil industries 
that would roll back some regulations that people thought were 
important.
    Under our laws in California people had to disclose who was 
buying the bulk of that ad, not every donation but the bulk of 
that ad, where it came from. And that made a difference for 
people, because they started realizing what it was all about 
and then they could dig deeper. But absent that, it was easy 
for people to just be taken in by an ad.
    So where do you think that--is there a line in thinking 
about that? Why do we care about H.R. 1 and doing this?
    Mr. Earle. Congresswoman, if I may, I think the story I 
have told about Wisconsin is a cautionary tale about how dark 
money works. These same folks who did that in Wisconsin also 
did it in California behind an aborted ballot initiative to 
overturn a decision, public nuisance decision of 10 major 
jurisdictions in California.
    Happily, California law required that that information be 
made public. The attorney general put that information right on 
the proposed ballot initiative itself and allowed people to 
know. So in the end the companies, NL Industries, the Sherwin-
Williams Company, and Conagra decided to crawl back into their 
closet because so much sunshine was put on what they were doing 
and the public became aware of it and was outraged.
    So I think the importance of disclosure is one of the most 
important features of H.R. 1, and many lessons to be learned 
from the States.
    Mrs. Davis of California. Mr. Jessup, did you want to 
comment?
    Mr. Jessup. In a matter of disclosure, and I would echo 
everything the person said, I think that we should probably 
also look at ways that we could more intentionally disclose 
information.
    The internet is not readily accessible for at least a third 
of Americans. In rural areas it is 40 percent. We need to kind 
of take that aspect as well--if we just throw it on the web, I 
am probably still not going to see it. Often a lot of people 
say, ``Well, it is on the internet.'' And you go to Detroit and 
say, ``I didn't see it,'' because a third of our city uses 
their wireless phone to connect to the internet.
    Mrs. Davis of California. Thank you. I am sorry. My time is 
up.
    The Chairperson. The gentlelady from Ohio is recognized.
    Ms. Fudge. Thank you very much, Madam Chairperson.
    And I want to thank all of you. I really just have a 
comment, because I do have a 3 o'clock meeting. So if you would 
excuse me.
    I just want to say this. You know, it is interesting that 
when we were in the minority my colleagues would read the 
Constitution at the beginning of every Congress. It is 
interesting that people support what is in the Constitution 
when it is to their benefit. I am sworn to uphold it all of the 
time.
    Now, the Constitution talks about an unabridged right to 
vote. It doesn't put a time limit on it. It doesn't say: If you 
didn't vote today you can't vote next year. It doesn't say: If 
you miss two elections you can't vote the next time.
    But this is the same Supreme Court who gutted the VRA, so 
it doesn't surprise me that they would say: Oh, yes, you want 
to purge people, go right ahead. It is the same Jon Husted--I 
am from the State of Ohio--it is the same Jon Husted that 
believes that it is fair to what he calls treat every county 
the same. He would believe it is okay to have one early voting 
site in my county, which has more than a million people, and 
have only one early voting site in a county that has less than 
10,000 people. He thinks that is fair, or at least he wants me 
to believe he thinks that is fair.
    It is important for us to understand that is the same Jon 
Husted who every single election decides to change the rules--
either the days of early voting, the times you can vote, the 
kind of paper you can use--anything to confuse the voter.
    I just think that it is important that if we are going to 
err, that we err on the side of the voter. What we ought to be 
doing is trying to make sure that we as Members of Congress 
provide a service to the people who brought us here and not 
give them a disservice by stifling their voice.
    So the Supreme Court may have ruled. It doesn't make it 
right.
    I yield back.
    The Chairperson. The gentlelady yields back.
    The gentleman from California.
    Mr. Aguilar. Madam Chairperson, I will yield back. I think 
we can end on that note for this round.
    The Chairperson. All right. I just want to say a few 
things.
    First, thanks to each one of you. Your testimony has been 
enlightening and very helpful, and I appreciate it, as does the 
entire Committee.
    There is a lot in H.R. 1. I think you can broadly say it is 
about disclosure, it is about voter empowerment, voter ballot 
access, and it is about ethics, and they are all important and 
we have just touched on a few of them.
    But one of the things that matters a lot to me is that 
Americans across the country get treated fairly and equally no 
matter where they are. And Article I, section 4 of our 
Constitution says this: ``The Times, Places and Manner of 
holding Elections for Senators and Representatives, shall be 
prescribed in each State by the Legislature thereof; but the 
Congress may at any time by Law make or alter such 
Regulations.''
    We have jurisdiction to set the rules to make sure that if 
you are an American in California or an American in Kansas you 
have an equal opportunity to cast your vote and choose your 
government. And I think that is important in terms of this body 
and the Members. We each have one vote on the House floor. We 
should make sure that the people who are choosing us are 
equivalently armed to access the ballot box.
    I wanted to say just a final thing on a measure that we 
haven't talked too much about, but I think is very important, 
obviously, since I am the author of the bill, and that is the 
move to redistricting commissions, citizens commissions, for 
House races.
    This is something that several States are moving to. To be 
honest, I was a skeptic in California because I thought, why 
should California change? It is one of the few States where the 
Democrats are in the majority. Why should we give that up? And 
that was wrong. The voters chose something else.
    And the commission is not allowed to know the voter 
registration of the districts that they are redistricting. They 
are not allowed to know where the Members of Congress live. 
They are supposed to just draw it straight up. And actually it 
is much better. It is much fairer.
    I think to bring that to all the States would help a lot in 
terms of allowing voters to choose their Representatives 
instead of the Representatives choosing their voters.
    I do think both parties do this. You look at States where--
I won't mention any of them--but States where Democrats are in 
the majority, have done extreme redistricting, and also States 
with Republicans. So this is not just a partisan issue, it is 
an empowerment issue for the American people, and I am hopeful 
that we can adopt it.
    I want to thank the Members for being here through these 
second rounds of questions.
    Again, I thank all of you. We will keep the record open for 
5 days if there are additional questions that may be sent to 
you.
    And with that and without objection, we are adjourned.
    [Whereupon, at 3:08 p.m., the Committee was adjourned.]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                             [all]
                             
                             
</pre></body></html>
